<html>
<title> - H.R. 1204 and H.R. 2408</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1204 and H.R. 2408

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             June 26, 2003

                               __________

                           Serial No. 108-34

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-973              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Madeleine Z. Bordallo, Guam
    Carolina                         Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 26, 2003....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     5
        Prepared statement of....................................     6
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     3
        Prepared statement of....................................     3
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................     4
        Prepared statement of....................................     4

Statement of Witnesses:
    Bristow, Dr. Edgar C., President, Friends of Forsythe 
      National Wildlife Refuge, Inc..............................    22
        Prepared statement of....................................    23
    Campbell, Chip, President, Okefenokee Adventures, Inc........    25
        Prepared statement of....................................    27
    Hirsche, Evan M., President, National Wildlife Refuge 
      Association................................................    30
        Prepared statement of....................................    32
    Hook, Thomas A., Treasurer, Friends of Blackwater Refuge.....    18
        Prepared statement of....................................    20
    Jones, Marshall P., Jr., Deputy Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................     7
        Prepared statement of....................................     9


LEGISLATIVE HEARING ON H.R. 1204, A BILL TO AMEND THE NATIONAL WILDLIFE 
REFUGE SYSTEM ADMINISTRATION ACT OF 1966 TO ESTABLISH REQUIREMENTS FOR 
  THE AWARD OF CONCESSIONS IN THE NATIONAL WILDLIFE REFUGE SYSTEM, TO 
PROVIDE FOR MAINTENANCE AND REPAIR OF PROPERTIES LOCATED IN THE SYSTEM 
  BY CONCESSIONAIRES AUTHORIZED TO USE SUCH PROPERTIES, AND FOR OTHER 
 PURPOSES; AND H.R. 2408, A BILL TO AMEND THE FISH AND WILDLIFE ACT OF 
 1956 TO REAUTHORIZE VOLUNTEER PROGRAMS AND COMMUNITY PARTNERSHIPS FOR 
                       NATIONAL WILDLIFE REFUGES.

                              ----------                              


                        Thursday, June 26, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Saxton, Gilchrest, Souder, 
Pallone, Kind and Bordallo.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. I apologize for interrupting the 
conversation. But we won't be here that long and you can return 
to that conversation.
    The Subcommittee will come to order. Today the Subcommittee 
will hear testimony on two measures to improve our national 
wildlife refuge system.
    The first bill is H.R. 1204 introduced by our colleague 
Mark Souder of Indiana. This proposal will establish for the 
first time a comprehensive concession policy for our refuge 
system.
    And I first ask unanimous consent that my full statement be 
put into the record, and I want to thank Mark for his 
provisions. I think that will vastly improve the access and 
enjoyability of the refuge system.
    And our second bill, H.R. 1204, contains provisions--well, 
that is Mark's. Our second bill is 2408, introduced by the Vice 
Chairman of the Subcommittee, Congressman Jim Saxton. This bill 
will reauthorize the National Wildlife Refuge System Volunteer 
and Community Partnership Act which he authored in 1998.
    And we cannot run the refuge system without volunteers, and 
I want to thank both members for their attention to detail in 
these two issues. And I will yield back the balance of my time 
and ask Mr. Saxton if he has any opening statement.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
 on Fisheries Conservation, Wildlife and Oceans, on H.R. 1204 and H.R. 
                                  2408

    Good morning, today, the Subcommittee will hear testimony on two 
measures to improve our National Wildlife Refuge System.
    The first bill is H.R. 1204 introduced by our colleague Mark Souder 
of Indiana. This proposal will establish for the first time a 
comprehensive concession policy for our refuge system. Based on a 
survey of refuge managers, we know that there are about forty refuges 
throughout the country that offer a variety of concession services to 
the visiting public. These services range from book store sales, canoe 
rentals, interpretive tours and tour boat operators. In seven cases, 
private individuals have signed contracts with the U.S. Fish and 
Wildlife Service and they operate in buildings owned by the Federal 
Government.
    H.R. 1204 contains provisions that require the development of a 
standardized contract for all concessionaires, allows a concessionaire 
to be given financial credit for any necessary maintenance and repairs 
and stipulates how the concession payments will be spent. The 
overarching goal is to enhance the public's recreational, educational 
and interpretive enjoyment of our refuge system.
    This is a good bill, it was overwhelmingly adopted in the House 
last year and I compliment Congressman Souder for his tireless 
leadership in promoting this innovative idea.
    The second bill is H.R. 2408 introduced by the Vice Chairman of the 
Subcommittee Congressman Jim Saxton. This bill will reauthorize the 
National Wildlife Refuge System Volunteer and Community Partnership Act 
which he authored in 1998.
    There is no question that volunteers play an invaluable role in the 
successful operation of hundreds of refuges throughout the United 
States. Since 1982, the number of refuge volunteers has grown from 
4,251 individuals to over 36,000. In the past year alone, volunteers 
have contributed over 1.3 million hours of their time to the refuge 
system. From operating a backhoe, assisting in the banding of birds or 
providing educational information to the public, volunteers do it all.
    H.R. 2408 will extend the landmark 1998 law that established a 
pilot program for paid full time volunteer coordinators, allowed the 
service to enter into cooperative agreements and created a new refuge 
enhancement program. It is appropriate that we examine the 
effectiveness of these changes, determine whether modifications to 
certain provisions would be helpful and question whether we should 
extend or increase the level of appropriations.
    I look forward to hearing from our distinguished witnesses and I 
would highlight the fact that we are considering this legislation 
during the 100th anniversary of the National Wildlife Refuge System.
    I am pleased to recognize the distinguished Ranking Democratic 
Member of the Subcommittee, Congressman Frank Pallone.
                                 ______
                                 

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman, members of the 
Subcommittee. I am pleased to be here today to discuss a bill 
that I originally sponsored and authored, the National Wildlife 
Refuge Volunteer Act. I would like to thank our witnesses for 
being here today, and I would like to especially extend warm 
welcome to Dr. Edward Bristow--wave your hand at us there, Ed. 
Dr. Bristow is from the Friends of Forsythe. The Edwin B. 
Forsythe Refuge is located partially within my Congressional 
District.
    And I mentioned to Dr. Bristow, we are going to have a 
rather disjointed hearing this morning because we are going to 
be interrupted in a few minutes to go to the House floor for 
some votes, and he said that is all right, I can describe this 
bill in two words: resounding success. So we are very pleased 
to have you here this morning, Dr. Bristow, to share those very 
concise but important thoughts with us.
    Mr. Chairman, I have a lengthy statement, and I'll just ask 
unanimous consent that it be placed in the record for 
expediting time. Thank you.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
               from the State of New Jersey, on H.R. 2408

    Good morning Mr. Chairman, members of the Subcommittee. I am 
pleased to be here today to discuss one of my bills, the National 
Wildlife Refuge Volunteer Act. Thank you to our witnesses for being 
here today. I would like to extend an especially warm welcome to Dr. 
Edgar Bristow, from the Friends of Forsythe. The Edwin B. Forsythe 
Wildlife Refuge is located partially within my Congressional district.
    The National Wildlife Refuge System, which is administered by the 
U.S. Fish and Wildlife Service, contains 92 million acres of Federal 
lands dedicated to the conservation of fish and wildlife. The Refuge 
System contains 540 Refuges located throughout the United States.
    The system provides habitat for thousands of species of fish and 
wildlife and it is particularly important to migratory bird 
conservation as many refuges are concentrated along the major North 
American flyways.
    Section 7 of the Fish and Wildlife Act of 1956 authorizes refuge 
volunteer programs. This section of the Fish and Wildlife Act of 1956 
was adopted in the 1978 amendments to the Act and this authority was 
expanded subsequently by my bill, the National Wildlife Refuge System 
Volunteer and Community Partnership Enhancement Act of 1998.
    This bill authorized a number of actions to be taken by the 
Secretary of the Interior, including: to recruit, train and accept the 
services of individuals as volunteers for any program conducted by the 
agency; provide volunteers with food, housing, transportation and 
uniforms; provide matching funds for gifts or bequests to refuges; 
establish a Senior Volunteer Corps; enter into cooperative agreements 
with partner organizations, academic institutions or State or local 
governments to carry out resources stewardship operation and 
maintenance and educational projects; develop refuge education 
guidelines and refuge enhancement education programs; deem volunteers 
government employees for the purpose of tort claim liability and 
compensation for job-related injuries and require that gifts for 
specific refuges are used on site.
    In addition, the Act added a new provision to enhance community 
partnerships with the refuges. This new provision allowed the Secretary 
to enter into cooperative agreements with a partner organization, 
academic institution, or any State or local government to carry out 
projects with geographically related refuges. Such projects could 
include promoting the stewardship of resources within the refuge 
through habitat maintenance or restoration.
    Projects could also include education on the missions of the 
refuge, or projects to construct or improve facilities on the refuge. 
Finally, the Act created a new Refuge Education Program Enhancement 
program to provide guidance for educational programs at individual 
refuges.
    On June 10, 2003 I introduced the National Wildlife Refuge 
Volunteer Act of 2003, which will extend the authorization for these 
programs through September 30, 2009. I am pleased this hearing is being 
held today to discuss this important issue. Our wildlife refuge system 
provides so many people with the opportunity to enjoy the diverse 
natural resources our country has to offer. Thank you and I look 
forward to hearing the testimony from our witnesses.
                                 ______
                                 
    Mr. Gilchrest. I recognize Mr. Souder.

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you, Mr. Chairman. I would also like to 
ask that my full statement be submitted into the record. And I 
appreciate working with the Chairman to try to move this bill. 
We have sponsored similar legislation in the last few 
Congresses. We have had it moved at, snared at the tail end, 
and I am looking forward to actually having it become law in 
this important anniversary year of the Fish and Wildlife 
Service.
    My friend, Lou Hinds, who was the refuge director in the 
Ding Darling Fish and Wildlife Refuge down in Florida where 
often I would vacation, called this to my attention as we were 
looking at the difficulty of concessionaires and the motivation 
to provide in areas away from the nesting and away from where 
it might be problems to wildlife at different seasons, but how 
to bring more visitors into fish and wildlife areas where they 
can appreciate and understand the importance of such refuges; 
that given the current system, much like it was under the 
National Park Service, there hasn't really been a motivation on 
the part of individual refuge managers or concessionaires to 
provide or upgrade facilities, and it was often the last part 
of a package. And I believe this bill, patterned after the 
National Parks Concession Act that this full Committee passed, 
will address those questions for restrooms, campgrounds, boat 
docks, buildings that can--roof repairs, all sorts of problems 
that many of the areas have that discourage visitation and, 
quite frankly, often discourage environmentally sensitive 
concessionaires from even bidding in a process or wanting to 
provide those concessions.
    So thank you, Mr. Chairman, for this hearing. I am looking 
forward to having this become law. And I want to thank the Fish 
and Wildlife Service, too, for their help in drafting it as we 
continue to move this through.
    [The prepared statement of Mr. Souder follows:]

Statement of The Honorable Mark E. Souder, a Representative in Congress 
                from the State of Indiana, on H.R. 1204

    Mr. Chairman, I want to thank you for holding a mark-up on this 
important legislation to reform the concessions process within the 
National Wildlife Refuge System. The Fish and Wildlife Service has been 
working for many years to establish a process to properly maintain 
concession facilities located in National Wildlife Refuge areas and to 
provide the visiting public with safe places for recreation.
    As the House sponsor of similar legislation in the 106th and 107th 
Congresses, I am pleased to be the sponsor of H.R. 1204 and look 
forward to working with my colleagues on the Resources Committee to 
successfully pass H.R. 1204.
    H.R. 1204 amends the National Wildlife Refuge System Administration 
Act of 1966 to establish a new policy for the maintenance of facilities 
as well as Fish and Wildlife Service authorized improvements of 
facilities that are leased by concessionaires in National Wildlife 
Refuge System areas. Specifically, the bill authorizes the Secretary of 
the Interior to include in any contract with a concessionaire, 
provisions that authorize concessionaires to maintain and make repairs 
to facilities, and to treat such costs incurred as a form of payment 
towards the leasing fees of the facilities. Under the provisions 
contained in H.R. 1204, the Fish and Wildlife Service ultimately 
retains the right to decide which project repairs are consistent with 
the mission of the National Wildlife Refuge System.
    Like many Americans, I regard wildlife refuges as a significant 
piece of our national natural treasures. Over 500 refuges and refuge 
areas have been established across the country not only to carry out 
conservation missions, but to also act as living laboratories for the 
System's many visitors. Historically, and in accordance to the System's 
statutory mission, refuges have sought to educate people about the 
importance of wildlife and plant habitats through conservation, 
management, and where appropriate, restoration. In order for the 
National Wildlife Refuge System to continue to carry out this mission, 
refuge facilities must be able to adequately support the visiting 
public.
    Under current law, the Fish and Wildlife Service does not have the 
tools necessary to adequately maintain our refuges' facilities. 
Restrooms, campgrounds, boat docks and buildings throughout the System 
have fallen into a state of disrepair. I have witnessed and experienced 
this disrepair personally. Annually, my family travels to Sanibel 
Island, Florida which is home to the Ding Darling National Wildlife 
Refuge. While there, I have witnessed first hand the need for roof 
repairs, dock replacement and additional restrooms that handicapped 
accessible.
    H.R. 1204 seeks to correct the problem that is becoming commonplace 
at refuges across the nation. The primary goal of this legislation is 
to provide safe and properly maintained facilities for the public to 
enjoy. I encourage my colleagues to support this important piece of 
legislation.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Souder. I don't know if I 
have to ask unanimous consent for Mr. Kind to sit on the dais.
    Mr. Kind. Not anymore.
    Mr. Gilchrest. Not anymore.
    Mr. Kind. It is my understanding, Mr. Chairman, that as of 
yesterday I was notified that room has been made on the 
Subcommittee for my participation. So I am happy to be a new 
member of the Subcommittee, and I couldn't think of a better 
hearing to participate in today than these two bills pending, 
affecting the refuge system. I have two of the most beautiful 
refuges in the entire Nation in my Congressional District, the 
Upper Mississippi Wildlife Refuge, one of the largest; the 
great--
    Mr. Gilchrest. Have you been to Blackwater Refuge in 
Dorchester County, Maryland?
    Mr. Kind. We will have to do that, Mr. Chairman. I will be 
happy to accept an invitation and get out and about--and also 
the Necedah Wildlife Refuge, where we have three endangered 
species. So it is a tremendous system that has been established 
throughout the country. We have the 100th anniversary this year 
that we are celebrating. I think there is a lot of work that we 
can do in a bipartisan nature in order to improve the refuge 
system, and will look forward to today's hearing. Thank you.
    Mr. Gilchrest. Thank you, Mr. Kind. Mr. Pallone?

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Let me say that I am 
pleased to see that Mr. Kind is here today joining us as well.
    I wanted to thank you for holding this hearing on the 
legislation to enhance and modernize visitor services within 
our national wildlife refuge system. With annual public 
visitation to the refuge system soon expected to surpass 40 
million people, it is critical that we address the growing 
public use of refuge lands and waters in a manner that ensures 
healthy and productive fish and wildlife habitat for years to 
come.
    By definition, refuge lands are set aside exclusively for 
the benefit of fish and wildlife, and we therefore need to be 
prudent and thoughtful when examining any proposal which might 
detract from the overall wildlife first mission of the refuge 
system, and this mission should be our priority concern.
    I commend the sponsors of the bills before the Committee 
this morning, both Congressman Mark Souder and Congressman Jim 
Saxton. Their thoughtful legislation addresses specific aspects 
of an emerging conundrum challenging refuge managers how best 
to manage increased public visitation with limited or shrinking 
annual operating and maintenance budgets. Certainly the ideas 
embodied in both H.R. 1204 and H.R. 2408 impress me as positive 
steps in the right direction. After all, it is important to 
establish a standard governing policy for concessions in our 
Federal refuge system, as the continued absence of such a 
policy could be a potential management headache. And 
furthermore, considering that $1.8 billion operations and 
maintenance backlog afflicting the refuge system, it seems like 
good policy to promote the participation and utilization of 
volunteers to supplement the Federal employees who have been 
stretched across the entire system.
    We need to think both creatively and carefully to ensure 
that our refuge system continues to prioritize wildlife while 
providing continued access to refuge visitors. And with that 
thought in mind, I look forward to hearing from our witnesses 
about whether these bills strike this appropriate balance.
    And again, I thank you and I thank Mr. Kind for being here 
as well.
    ]The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
        from the State of New Jersey, on H.R. 1204 and H.R. 2408

    Thank you, Mr. Chairman, for holding this hearing on legislation to 
enhance and modernize visitor services within our National Wildlife 
Refuge System.
    With annual public visitation to the Refuge System soon expected to 
surpass 40 million people, it is critical that we address the growing 
public use of refuge lands and waters in a manner that ensures healthy 
and productive fish and wildlife habitat for years to come.
    By definition, refuge lands are set aside exclusively for the 
benefit of fish and wildlife. We therefore need to be prudent and 
thoughtful when examining any proposal which might detract from the 
overall ``wildlife first'' mission of the Refuge System. This mission 
should be our priority concern.
    I commend the sponsors of the bills before the committee this 
morning, Congressman Mark Souder and Congressman Jim Saxton. Their 
thoughtful legislation addresses specific aspects of an emerging 
conundrum challenging refuge managers: how best to manage increased 
public visitation with limited or shrinking annual operating and 
maintenance budgets.
    Certainly the ideas embodied in both H.R. 1204 and H.R. 2408 
impress me as positive steps in the right direction. After all, it is 
important to establish a standard governing policy for concessions in 
our Federal Refuge System, as the continued absence of such a policy 
could be a potential management headache.
    Furthermore, considering the $1.8 billion dollar operations and 
maintenance budget backlog afflicting the Refuge System, it seems like 
good policy to promote the participation and utilization of volunteers 
to supplement the federal employees who have been stretched across the 
entire System.
    We need to think both creatively and carefully to ensure that our 
Refuge System continues to prioritize wildlife, while providing 
convenient access to Refuge visitors. And with that thought in mind, I 
look forward to hearing from our witnesses about whether these bills 
strike this appropriate balance. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Jones, thanks once again for coming to our 
Subcommittee. And we all look forward to your testimony. You 
may begin, sir.

STATEMENT OF MARSHALL JONES, DEPUTY DIRECTOR, FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Mr. Chairman. It is always a pleasure 
to be here and to be with all of you. And it is especially a 
pleasure today to have the opportunity to present the 
Administration's views on H.R. 1204, to establish a national 
wildlife refuge system concessions policy, and H.R. 2408, to 
reauthorize the Volunteer Act.
    I am Marshall Jones, the deputy director of the Fish and 
Wildlife Service. And Mr. Chairman, there is so much that I 
could say about each of these bills, about how important they 
are, how much we appreciate the initiative by the Committee and 
the members to introduce these, but I will just give you a 
brief summary of my statement and would ask that my full 
written statement could be put in the record.
    Mr. Gilchrest. Without objection.
    Mr. Jones. Thank you, sir. The H.R. 1204 would amend the 
National Wildlife Administration Act to authorize the Secretary 
of the Interior to provide for the maintenance and repair of 
buildings and properties located on lands in the refuge system. 
Mr. Chairman, the Administration strongly supports the goals of 
this legislation, and we appreciate all the efforts to bring it 
forward.
    We do have some technical issues that we would like to 
discuss with the Committee and with the Committee staff, and we 
would like to work with you to address these things so that we 
can fine-tune some of the provisions to make sure that it will 
accomplish our mutual objectives.
    We also fully support H.R. 2408, which would reauthorize 
the National Wildlife Refuge System Volunteer and Community 
Partnership and Enhancement Act.
    First let me say a few words about H.R. 1204. Concessions 
are defined as businesses operated by the private sector that 
provide recreational, educational, and interpretive 
opportunities for the visiting public. A concession provides a 
public service and generally requires some kind of capital 
investment by the concessionaire and/or the Fish and Wildlife 
Service for the facilities and the products which would be 
used.
    Mr. Chairman, in the 1980's we explored whether it would be 
possible for concessionaires to, instead of making a direct 
payment in cash to us, to instead use the costs that they might 
incur in upgrading or repairing facilities to offset part of 
what they would owe us as the concession fee. But the 
Department of Interior Office of the Solicitor gave us a pretty 
definitive ruling that that was not possible under current law. 
Unlike the National Park Service, we do not have the exemption 
that would enable us to do that.
    As a result, although we have, certainly, some excellent 
concessionaires operating in some refuges, concessions have not 
been used to nearly their full potential within the refuge 
system, since a concessionaire is hard-pressed both to make the 
required payments to us, payments that are determined through a 
bidding system, and then also to take it on themselves to incur 
the additional cost of repairing the boat dock or whatever 
facility they may be using. And so this has served as a 
disincentive to concessionaires in places where they might 
otherwise be able to provide very valuable services to the 
public.
    When you combine this with the fact that both the Office of 
the Inspector General of the Department of Interior and then 
the GAO have audited our concession programs and found that 
there would be--great improvements could be made if we operated 
them on a more business-like basis but also used them more, and 
that we needed to also maintain our facilities better.
    And so we believe, for all of these reasons, Mr. Chairman, 
that concessions can make an even greater contribution to the 
experience which the public would have in refuges than they 
have right now.
    We appreciate the fact that the bill in front of us also, 
however, keeps in mind the need to ensure that any proposed 
concession activity first be screened to make sure that it is 
compatible with the mission of the refuge system and the 
purposes of that refuge, and that it will not have an adverse 
impact on priority activities that would take place on the 
refuge or the resources of the refuge. And so we believe, Mr. 
Chairman, that this bill does incorporate the right checks and 
balances within it.
    However, Mr. Chairman, we do note that the requirement in 
the legislation that there be a standardized contract adopted 
by regulation could restrict our flexibility, since if we 
needed later to amend that contract, perhaps for a very small 
thing, if we had to go back and first change the regulations, 
that could be a process that could take a year or 2 years. And 
so we believe, Mr. Chairman, there might be a way that we could 
work within the spirit of the legislation to make some 
technical amendments that would give us that flexibility to 
adjust contracts as needed and yet still do that within the 
framework of regulations, as the bill calls for.
    Mr. Chairman, to conclude, we look forward to working with 
you on H.R. 1204, and we especially appreciate the introduction 
of this bill during this year, the centennial anniversary of 
the refuge system. And we can think of no better contribution 
to enhancing the refuge system than to have concessions 
legislation which would enable us to do what the National Park 
Service does now, to have a more vibrant, strong concessions 
program, one that we would administer in close cooperation with 
the regulated public and everyone who is involved with it, 
something that would expand the wildlife-dependent recreational 
opportunities provided by the refuge system, and increase the 
value of the refuge system to the American people.
    Now, Mr. Chairman, let me turn to H.R. 2408, the Refuge 
Volunteer Act. As I noted before, we strongly support 
reauthorization of this legislation.
    Mr. Chairman, volunteers are one of the best investments, 
we believe, that we can make. I did some calculations this 
morning. We have well over 30,000 volunteers now providing 
services on national wildlife refuges, and over the past 2 
years, the value of the services which they provided was over 
$28 million. We administer this with an appropriation of about 
seven hundred and some thousand dollars. If you do the math, 
Mr. Chairman, that is a 20-to-1 return on our investment.
    We believe that a 2000 percent return on investment is one 
that any prudent investor would think is a good deal. We think 
that is a good deal for the American people, and we thank this 
Committee for the effort to enact the legislation and now to 
reauthorize it.
    The examples of the contributions made by volunteers are 
legion. And in my testimony, Mr. Chairman, you will see just a 
few examples of the tremendous contributions being made at 
refuges as diverse as Bitter Lake National Wildlife Refuge in 
New Mexico, where we have a organization which was recognized 
for the President's Volunteer Service Award under the Take 
Pride in America program.
    Mr. Chairman, we have terrific work being done at Forsythe 
Refuge in New Jersey in Mr. Saxton's District, where we have 
terrific help from volunteers. And we have opportunities to 
expand that everywhere across the country using the model of 
the work that is being done at Forsythe National Wildlife 
Refuge, at Blackwater Refuge, Mr. Chairman, in your District, 
and at refuges across the country, refuges from Florida to my 
home State, Mr. Souder, of Indiana. We have opportunities right 
now that we need people for. Of course, the terrific 
contributions that refuge volunteers have made at Ding Darling 
Refuge on Sanibel Island in Florida has been a model for 
everyone around the country. But we have examples in every 
State of the Union now, where volunteers are making a 
tremendous difference in offering these services to the 
American people at that 20-to-2 return on investment.
    We also appreciate, Mr. Chairman, the provisions of the law 
which allow for volunteer coordinators.
    Mr. Gilchrest. Mr. Jones, I apologize, but I interrupt 
because we will be called for a vote at any minute, and I want 
to give the members a chance before they've left, in case they 
can't come back, to ask some questions. So thank you very much 
for your testimony and your insight.
    [The prepared statement of Mr. Marshall Jones follows:]

    Statement of Marshall Jones, Deputy Director, Fish and Wildlife 
         Service, U.S. Department of the Interior, on H.R. 1204

    Mr. Chairman, thank you for the opportunity to present the 
Administration's views on H.R. 1204, which establishes a National 
Wildlife Refuge System (NWRS) concessions policy, and H.R. 2408, the 
National Wildlife Refuge System Volunteer Act. I am Marshall Jones, 
Deputy Director of the U.S. Fish and Wildlife Service (Fish and 
Wildlife Service).
    Generally  H.R. 1204 would amend the National Wildlife Refuge 
System Administration Act of 1966 (16 U.S.C. 668dd-668ee) 
(Administration Act) to authorize the Secretary of Interior to provide 
for maintenance and repair of buildings and properties located on lands 
in the Refuge System. The Administration supports the goals of this 
legislation; however, we have some concerns with the bill and would 
like to work with the Committee to address these to help improve the 
management and accountability of the refuge concession program. H.R. 
2408 would reauthorize the National Wildlife Refuge System Volunteer 
and Community Partnership Enhancement Act of 1998. We strongly support 
reauthorization of this Act.

H.R. 1204--Concessions in the National Wildlife Refuge System
History and Need for Legislation
    A brief review of relevant legislation and background information 
will help explain the need for this legislation.
    Concessions (i.e., secretarially-granted privileges) are defined as 
businesses operated by private enterprises that provide recreational, 
educational, and interpretive opportunities for the visiting public. A 
concession provides a public service and, generally, requires some 
capital investment by the concessionaire and the Fish and Wildlife 
Service for facilities and products. The Secretary of the Interior 
(Secretary) delegated the authority to approve such ventures to the 
Director of the Fish and Wildlife Service in October 1957. This 
authority has since been delegated to the Regional Directors.
    Since 1935, the Secretary has been authorized to sell or otherwise 
dispose of surplus products, to grant privileges on units of the NWRS, 
and to have the receipts be reserved in a separate fund known as the 
Refuge Revenue Sharing Fund (Fund) (16 U.S.C. 715s). Subsection (b) of 
16 U.S.C. 715s stipulates that the Secretary may pay any necessary 
expenses incurred in connection with the revenue-producing measures set 
forth in 715s(a). However, public recreation-related concession-
generated revenues have not been utilized to offset concession-related 
refuge administration, capital improvements, and maintenance expenses 
because of competing priorities for refuge resources. Subsection (c) 
requires that the balance of the Fund be paid to counties in which 
lands are reserved from the public domain or acquired in fee and 
managed by the Fish and Wildlife Service. In Fiscal Year 2002, the 
Refuge Revenue Sharing Fund received deposits of $6.1 million from 
sales and the disposal of property. Less than $200,000 was deposited 
into this account from refuge concession programs.
    The Refuge Recreation Act of 1962 (16 U.S.C. Sec. 460k through 460 
k-3), as amended, allows for public recreation in fish and wildlife 
conservation areas as long as it is compatible with conservation 
purposes, is an incidental or secondary use, and is consistent with 
other Federal operations and primary objectives of the particular area.
    Pursuant to the Administration Act, the Secretary is authorized to 
negotiate and enter into contracts with any person, public agency, or 
private enterprise for the provision of public accommodations when the 
Secretary determines such accommodations would not be inconsistent with 
the primary purpose for which the affected area was established.
    In 1983, the Region 3's Regional Director requested that 
concessionaires at the Crab Orchard National Wildlife Refuge (NWR) in 
Marion, Illinois, be allowed to pay for repairs to facilities there in 
lieu of making concessions payments to the refuge. This request was 
denied. The Department's Office of the Solicitor had determined that 40 
U.S.C. 303c (an exemption to 40 U.S.C. 303b, which requires all 
payments for leasing of buildings and property to be monetary in 
nature) applied only to the National Park Service. While a legislative 
proposal was forwarded to Congress in 1984, it was never enacted.
    In 1995, the Office of the Inspector General identified the need to 
improve the condition of concession facilities, to increase the fees 
paid to refuges, and to have repairs and improvements made to the 
facilities (Audit Report No. 95-I-376). As an aside, the Office of the 
Inspector General has issued numerous reports on the management and 
administration of National Park Service concessions and Concessionaire 
Improvement Accounts. The National Park Service has an extensive 
concession program, and we believe that any legislation to improve the 
NWRS concession program should consider the recommendations included in 
these reports on managing concessions.
    The Government Accounting Office (GAO) subsequently conducted an 
audit of government agencies providing concession opportunities. In its 
1996 report, the GAO found that competition resulted in a higher rate 
of return from concession operations and that agencies that were 
allowed to retain fees received a better rate of return. The average 
return to the government in agencies retaining fees was 11.1 percent; 
in contrast, concessions managed by agencies that did not retain fees 
averaged 2.6 percent.
    Most recently, the Refuge Improvement Act of 1997 (16 U.S.C. 668dd) 
(Improvement Act) established priority uses for the NWRS. Hunting, 
fishing, wildlife observation, photography, environmental education, 
and interpretation are the six priority uses that the NWRS must 
provide, if deemed compatible with the purpose for which the refuge was 
established.
    Finally, the Fish and Wildlife Service supplemented this existing 
statutory framework in November 2001 by issuing a Director's Order on 
concession contracts. The purpose of the Order was to establish the 
scope, policies, authorities, and responsibilities for concession 
contracts within the NWRS, and to provide guidance for issuing 
concession agreements under our current legislative mandates and 
authorities.

The Value of Concessions in the National Wildlife Refuge System
    Despite the long history of attention to this issue, the 
concessions program in the NWRS can be improved.
    The Fish and Wildlife Service utilizes concession operations as a 
valuable management tool by which it can provide recreational and 
educational services to the visiting public. In some instances, 
concession operations may be the best means for visitors to view and 
appreciate wildlife and, thus, to gain a better understanding of the 
purpose and mission of the NWRS. In general, concessions help the Fish 
and Wildlife Service achieve its mission. They also help to educate the 
public about the importance of wildlife habitat preservation and the 
protection of ecosystems.
    Concession operations also help refuge managers enhance visitor 
experiences. Current concession operations include services such as 
canoe rentals, guided naturalist tours, ferry operations to remote 
refuge islands, and fishing guides. All of these operations afford the 
public the opportunity to experience, ``hands on,'' the many features 
and advantages of wildlife refuges and, we hope, to come away with a 
greater appreciation of how tax dollars are being spent.
    Despite the many advantages of concession operations, the Fish and 
Wildlife Service currently has very few operations in place compared to 
the total number of refuges. Part of the reason for the low numbers is 
that current law (40 U.S.C. 303b) requires leasing of buildings and 
properties by concessionaires to be paid for with monetary 
consideration only. Some refuge managers believe their best efforts to 
provide a cost-effective means of maintaining refuge facilities are 
hampered by not allowing non-monetary consideration be paid by 
concessionaires for such leases. Although the Service can pay for the 
administration, capital improvement, and maintenance expenses involved 
with a concession operation (as is allowed under subsection (b) of 16 
U.S.C. 715s), other priorities exist, and all must fit within the 
framework of priorities established by the President's Budget.
    We believe that improving the existing concessions program could 
begin with legislation like H.R. 1204 which, among other things, would 
allow the Service to accept non-monetary considerations in lieu of 
concessions payments.

H.R. 1204, Establishing Concessions Policy in the National Wildlife 
        Refuge System
    We believe that changes in existing authority could improve refuge 
concessions management and accountability. The Administration supports 
the goals of H.R. 1204 and would like to work with the Committee and 
the bill's sponsors to strengthen and clarify a few provisions.
    Specifically, Section 1(a) requires the issuance of regulations to 
establish a standardized contract for concession activities in the 
NWRS. We support this change but, because of the variability in the 
types and terms of such agreements, we would like to ensure that the 
Fish and Wildlife Service maintains the ability to adapt our contract 
terms to different situations. We would like to work with the Committee 
to ensure that we have that flexibility.
    This section also authorizes a concessionaire to maintain or repair 
any improvement on or in such land or water that the concessionaire is 
authorized to use for such purposes, and treat costs incurred by the 
person for such maintenance or repair as consideration otherwise 
required to be paid to the United States for such use. In other words, 
this legislation would allow a concessionaire to make repairs to 
concessions facilities on National Wildlife Refuges, with the 
stipulation that the United States retains title to property maintained 
or repaired under these provisions.
    Finally, this section establishes that concession-related receipts 
shall be available for expenditure in accordance, without further 
appropriation, to increase the quality of the visitor experience and 
enhance the protection of resources. This means that an appropriate 
share of the concessionaire's gross receipts would be available to the 
refuge for contract administration, backlogged repair and maintenance 
projects, interpretation, signage, habitat or facility enhancement, and 
resource protection and preservation.
    Section 2 would amend the Administration Act to require the 
Secretary to provide a report to the House Resources Committee and the 
Senate Environment and Public Works Committee detailing concessions 
activities within the NWRS.
    As noted above, we do have some technical concerns with the current 
language, and a few minor changes that will clarify the statutory 
language, as well as provide regulatory flexibility with respect to the 
standardization of concession contracts.

Conclusion
    The Administration supports the goals of H.R. 1204 and looks 
forward to working with the Committee to address our concerns. As the 
NWRS celebrates its Centennial anniversary this year, the Fish and 
Wildlife Service is working hard to ensure that visitors find National 
Wildlife Refuges welcoming, safe, and accessible, with a variety of 
opportunities to enjoy and appreciate America's fish, wildlife, and 
plants. We continue to host thousands of activities for the public 
nationwide throughout the year and will carry on activities beyond our 
Centennial year. We want people in communities to become aware of their 
local National Wildlife Refuges, to understand that each refuge is part 
of the NWRS, and to realize how refuges can contribute to tourism and 
enhance local economies.
    Providing quality wildlife-dependent recreational opportunities is 
part of the Fish and Wildlife Service's vision for the NWRS, and 
concession operations can provide the visiting public with a means to 
access and interpret our refuges. We look forward to working with the 
Committee to help ensure that the Fish and Wildlife Service's 
concessions system will be more efficient and economical and improve 
the quality of the visitor experience at existing operations without 
compromising overall management and accountability of the refuge 
concessions program.
    We believe that these changes will help accomplish the Fish and 
Wildlife Service's desire to build a broader base of public support for 
wildlife conservation by reaching out and involving a larger cross 
section of the American public in public use programs and community 
partnership efforts.

H.R. 2408--National Wildlife Refuge Volunteer Act of 2003
    H.R. 2408 reauthorizes the National Wildlife Refuge System 
Volunteer and Community Partnership Enhancement Act of 1998 (Act). As 
note above, we strongly support this reauthorization.
    The Fish and Wildlife Service's volunteers play a vital role in 
helping to fulfill our mission of conserving, protecting and enhancing 
America's fish and wildlife and the habitats on which they depend. 
Volunteers provide essential services that we do not have the resources 
or staff to provide. Further, many Americans are interested in 
volunteering their time and energy to improve the environment, and the 
NWRS is where volunteers can satisfy their desires to make a difference 
while assisting the Fish and Wildlife Service accomplish its mission.
    With passage of the Act in 1998, Congress provided the Fish and 
Wildlife Service with new tools to involve the American people as 
stewards of our Nation's wildlife resources. These tools have helped us 
broaden and increase the size of our volunteer programs. Our volunteer 
program began in 1982 with 4,251 volunteers donating 128,440 hours of 
service. Those numbers have increased substantially since then, with 
National Wildlife Refuges alone hosting more than 34,000 volunteers in 
2002, contributing over 1.2 million hours of service. The tireless and 
creative efforts of our volunteers complete more than 20 percent of the 
work conducted on refuges, and volunteer contributions over the last 
two years are valued at $28.8 million. Clearly, money spent on the 
volunteer program yields values far greater than the initial 
investment.
    Our volunteers perform a variety of tasks, such as providing 
information and interpretation to the visiting public, leading refuge 
tours, conducting fish and wildlife surveys and habitat improvement 
projects, construction and repair projects, and assisting with 
laboratory and scientific research. They are individuals who want to 
give back to their communities, parents who want to be good stewards of 
the land and set examples for their children, retired people willing to 
share their wealth of knowledge, concerned citizens of all ages who 
want to learn more about conservation, and passionate people who enjoy 
the outdoors and want to spread the word about America's greatest 
natural treasures. Organizations providing volunteers include, among 
others, boy scouts, girl scouts, members of the American Association of 
Retired Persons, local Friends-of-the-Refuge groups, local Audubon or 
Ducks Unlimited chapters, and school groups, and we use volunteers from 
organizations such as the Student Conservation Association. The 
volunteer program offers a direct link between the Fish and Wildlife 
Service and citizens. There has been a strong public interest in 
participating in our programs and visiting Fish and Wildlife Service 
facilities, and we expect that interest to continue. Several examples 
of our volunteer efforts include:
    <bullet> At Bitter Lake NWR, New Mexico, volunteers have provided 
support and contributed thousands of hours of their time and talent to 
study and determine the nesting and fledgling success of endangered 
interior least terns, and also completed several 1,000+ hour studies to 
determine habitat use and populations of wintering sandhill cranes. 
Leading the study was a Ph.D. biologist who teaches at a local school. 
This volunteer has contributed over 10,000 hours of service to date and 
has received several awards for his volunteer efforts with the Fish and 
Wildlife Service, including most recently the President's Volunteer 
Service Award under the ``Take Pride in America'' Program. He also 
trains recent college graduates to perform biological studies, which 
are critical to the biological integrity of the NWRS's wildlife and 
conservation programs.
    <bullet> At Edwin B. Forsythe NWR, New Jersey, volunteers assist 
by performing weekly waterbird surveys. They also monitor the 
threatened piping plover's breeding activity and construct and maintain 
nest predator exclosures around piping plover nests. Nest predator 
exclosures have substantially reduced egg losses to predators. This 
monitoring provides valuable information on how to better protect these 
species. In addition, the interpretation work by volunteers to the 
public has substantially reduced people-caused disturbance to the 
nesting birds.
    <bullet> At the Hakalau Forest NWR, Hawaii, forty-two volunteer 
groups traveled to the refuge on weekends and weekdays to assist with 
the reforestation and alien plant control. The reforestation work 
included seed collection, tree nursery maintenance, and tree planting; 
over 23,000 native and endangered trees were outplanted. The alien 
plant control efforts included removal of several acres of banana poka.
    <bullet> Volunteers at Stone Lakes NWR, California, contributed 
over 3,500 hours this past year. Many projects, such as the mistnetting 
and banding of songbirds, planting of native trees and shrubs, could 
not have been accomplished without the help of dedicated volunteers. 
Thousands of school children and the general public learned about the 
refuge and the unique habitats of the Central Valley from tours given 
by volunteers during the year.
    <bullet> At Turnbull NWR, Washington, volunteers participating in 
the refuge's biological program contributed over 6,300 hours. Projects 
included assisting with spring and fall waterfowl surveys, marshbird 
survey, songbird point counts, MAPS, breeding bird surveys, duck 
banding, fire monitoring in ponderosa pine and aspen forests, pit fall 
trapping, raptor and shorebird surveys, rare plant surveys, elk 
surveys, coyote scat transects, aquatic amphibian surveys, a frog 
malformation study, construction and installation of elk exclosures, 
and monitoring bluebird and wood duck nest boxes. In addition, 
volunteers participating in the refuge's environmental education 
program contributed over 5,200 hours. Over 110 school and civic groups 
enjoyed field trips, classroom activities, aquatic ecology studies, 
night hikes, tours, and outreach programs facilitated by refuge 
volunteers.
    <bullet> At Ash Meadows NWR, Nevada, two volunteers removed 240 
inactive utility poles over a two month period. They donated over 500 
hours and saved the Fish and Wildlife Service $100,000.
    <bullet> At Okefenokee NWR, Georgia, 12 trailer concrete pads with 
water, sewage, and electric hookups were built to provide volunteers 
with temporary housing opportunities. Volunteers are required to stay a 
minimum of 2 months and work 32 hours a week in exchange for full 
service hookups. This exchange of housing lots for skilled refuge 
operations work has been so popular that the 12 trailer pads are used 
at full capacity and having to put prospective volunteers on a waiting 
list is very common.
    <bullet> Volunteers at St. Marks NWR, Florida, donate hundreds of 
hours towards the Monarch Butterfly migration Research Program. 
Volunteers educated visitors on the natural history of the monarch 
butterfly, and, thanks to the coordinating efforts of one of the lead 
volunteers, 3,203 monarchs were counted and 1,553 were tagged.
    <bullet> Chincoteague NWR, Virginia, hosts several Elder hostels. 
The Elder hostel program provides retired and semi-retired seniors the 
opportunity to use their valuable skills and talents toward hands-on 
service projects. Last year, participants removed a portion of the 
Marsh Trail dike and built an elevated boardwalk in its place. They 
planted trees and built several information kiosks on the refuge.

Volunteer Coordinators
    One of the most significant provisions of the Act is its 
authorization to establish up to 20 volunteer enhancement pilot 
projects nationwide, each of which may hire a full time volunteer 
coordinator. Appropriations have allowed the Fish and Wildlife Service 
to create 16 of the 20 authorized positions. These full time volunteer 
coordinators are charged with recruiting, training, managing, and 
supervising volunteers and seeking partnerships between refuges and 
communities. The volunteer coordinators have significantly elevated the 
visibility and productivity of the 16 volunteer programs as well as 
helped in local fundraising efforts.
    The pilot volunteer coordinators have been instrumental in setting 
up key elements of effective volunteer programs on their refuges. They 
have created an organizational structure, tools, training and resources 
needed to manage the volunteer programs effectively. Programs 
established under this Act have substantially enriched refuge 
operations while providing satisfying work experiences for volunteers.
    In addition to offering needed skills to refuge programs, volunteer 
coordinators and the volunteers they manage provide important links 
between the refuge and neighboring communities, serving as a bridge 
between government and local citizens. These, in turn, help foster new 
partnerships. Time and again volunteers have proven the theory that 
good conservation through communication, consultation, and cooperation 
works best.

Community Partnerships
    The Act helps to facilitate partnerships between the Fish and 
Wildlife Service and non-Federal entities to promote public awareness 
of the resources of the NWRS and public participation in the 
conservation of those resources. The Act also encourages donations and 
other contributions by persons and organizations to individual refuges 
and the NWRS.
    In many cases, community partnerships take the form of ``Friends'' 
groups for a given refuge. ``Friends'' are groups of local citizens who 
join together to form 501(c)(3) nonprofit organizations in long term 
commitments to support the mission of their local NWR. They provide 
many important services to the refuge system including community 
outreach, educational programs, habitat restoration support, volunteer 
staffing and fundraising. Many of the groups are well established and 
provide far reaching assistance to their refuges. Others are just 
getting started. The national network of Friends groups numbered 70 in 
Fiscal Year 1996 and grew to more than 225 by the end of Fiscal Year 
2002, a significant rate of growth indicating their popularity in local 
communities. As the number of groups have increased, so too has the 
sophistication under which these groups design and implement programs--
all of which benefit the NWRS greatly.
    These partnerships with outside organizations and individuals are 
increasingly critical elements of our ability to carry out 
conservation, recreation, and education programs. Partnerships 
considerably add to our abilities to interact with the private sector 
in accomplishing the NWRS mission.
    The Fish and Wildlife Service thanks you, Mr. Chairman, and members 
of your Committee for undertaking the reauthorization of this Act. I 
cannot think of a better time, during the NWR System's 100 year 
anniversary, to reauthorize this important Act. Its reauthorization 
should provide a major boost for refuge volunteer programs and 
community partnership efforts and the many benefits they bring to our 
National Wildlife Refuges. It will allow the Fish and Wildlife Service 
to continue building upon its successful efforts to engage and involve 
private citizens in accomplishing our mission.
    Again, thank you, Mr. Chairman, for giving me the opportunity to 
discuss this legislation with the Committee. This concludes my 
statement and would be happy to answer any questions you might have.
                                 ______
                                 
    Mr. Gilchrest. And I will yield to Mr. Saxton.
    Mr. Saxton. Thank you. Mr. Jones, let me apologize, too. It 
is just one of the things that happen around here. We are going 
to--those buzzers are going to ring in the next few minutes and 
we are going to be out of here for a little bit.
    H.R. 2408, the volunteer bill that you talked about and 
that was described earlier by Mr. Bristow as a tremendous 
success, talk to us--there we go. We have about five or 6 
minutes that we can chat here before we have to run off. Talk 
to us a little bit about the maintenance backlog and what role 
the volunteer corps may be playing in helping to alleviate some 
of those problems.
    Mr. Jones. Well, Mr. Saxton, as you correctly note, we have 
a significant maintenance backlog. Right now we have over $720 
million of backlogged deferred maintenance and another $250-
some million in construction. So that is over a billion 
dollars. Now, volunteers--the services that volunteers provide, 
as I mentioned, $28 million over the last 2 years, a 
significant proportion of the work that they do is helping us 
to address some of these deferred maintenance activities. 
Volunteers and friends groups have also worked with us to 
partner on construction projects, so it is making an enormous 
contribution, Mr. Saxton.
    Mr. Saxton. Thank you. And with regard to user-friendly, if 
you will, human user-friendly facilities, I am aware that 
Friends of Forsythe, under the leadership of Dr. Bristow, have 
recently added some equipment that will help visitors get 
close-up looks at wildlife. Would you speak to that and other 
such activities that may be ongoing in other refuges?
    Mr. Jones. Mr. Saxton, probably Dr. Bristow is the best one 
to talk about the terrific things that they have done there. 
And I am looking forward, I hope next month, to having a chance 
to be up at Forsythe Refuge and to see first-hand--it has been 
a couple of years since I have been there--exactly what has 
been done there. But clearly, the activities that have been 
taking place at Forsythe have been a model for refuges around 
the system and a terrific example of how the effort of people 
like Dr. Bristow and others, their energy and their creativity, 
helps us do things that in some cases we wanted to do and 
couldn't, and in other cases, thing we hadn't even thought of, 
new ideas that are brought into the system--all of which 
provide tremendous benefits for the American people.
    Mr. Saxton. The final question is, are there any changes 
that are needed legislatively in order to further enhance the 
program?
    Mr. Jones. Mr. Chairman, we have some technical things that 
we would like to discuss with the Committee. Those things, a 
couple of them are alluded to in my testimony. Basically, it is 
excellent legislation. There are some fine-tuning we think that 
could be done.
    Mr. Saxton. Thank you.
    Mr. Gilchrest. Thank you, Mr. Saxton. Mr. Pallone.
    Mr. Pallone. I know that we have a vote, so let me just be 
quick. I just wanted to ask the question about how many 
volunteer enhancement pilot projects were conducted pursuant to 
Section 4 of the National Wildlife Refuge Volunteer and 
Community Partnership Enhancement Act, and was the report 
evaluating and making recommendations required in these pilot 
projects ever presented to Congress? What were those 
recommendations? Also, is there a senior volunteer corps 
established at this point, and are there any guidelines for the 
refuge education program? These are just--you know, you can try 
to answer some of those, or if not, give them to me in writing, 
if you can.
    Mr. Jones. Mr. Pallone, I will try to do this in 30 seconds 
or less here.
    Mr. Pallone. I know, it is hard.
    Mr. Jones. We have 16 projects right now that are active. 
We do have a report on this. I apologize that that report has 
been delayed, but it is at the printer now, that would give you 
more information about what we have done. In terms of the 
senior corps, we have seniors as the mainstay of our volunteer 
programs, though we have people of all ages. What we are going 
to do now is explore how we could reach out more to 
organizations like AARP and others and highlight the fact that 
we want, need, and welcome seniors to be part of the refuge 
volunteer program. They are making tremendous contributions 
now, but we think we could do more, recruit more, and recognize 
better the contributions that they are making.
    Mr. Pallone. And that report, you say, is going to be 
available soon, the one you mentioned?
    Mr. Jones. Yes, sir.
    Mr. Pallone. OK. What do you estimate when? Another week?
    Mr. Jones. My guess is in a few weeks. And we will provide 
that more specific information for the record.
    Mr. Pallone. And then as far as the concessions are 
concerned, it is our understanding that a new concessionaire 
has entered into an agreement with Fish and Wildlife to take 
over the concession at Midway Atoll National Wildlife Refuge. 
Is that correct? And what process was used to go through and 
select this concessionaire--any information you might have 
about bidders or the financial arrangements? If you can answer 
that.
    Mr. Jones. Mr. Pallone, Midway is obviously a very 
complicated topic. We would be happy to provide you with 
details. We do have an organization, it is an Alaska Native-
based organization, which is working with us now. But we also 
learned a lot of lessons from Midway because we didn't have the 
sort of concessions legislation that is now being offered here. 
The things we did in the past in Midway to work around that 
gave us a lot of lessons in what does and doesn't work.
    Mr. Pallone. Well, with your permission, Mr. Chairman, if 
we could get a written response to some of these questions 
about Midway, because I know we are running out of time.
    Mr. Jones. We would be pleased to do that.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Mr. Souder.
    Mr. Souder. Thank you for your testimony. I wanted to 
clarify two things. One is that you referred in your written 
testimony and verbally to the technical concerns about having 
more flexibility at the Fish and Wildlife with the concessions, 
and then--but I can't see what other concerns were enumerated, 
yet you referred to ``these changes.'' I know I have met and 
believe that we can meet some concerns, such as concessionaires 
being based at the refuge with some of the friends groups. Are 
those the type of technical changes you are talking about, or 
are there additional beyond the standardized contract?
    Mr. Jones. The standardized contract is one. Another issue 
is who exactly should be treated as a concessionaire. We know 
that there are some issues about guides, for example. A guide 
is a little different than a person who rents a boat, since the 
guide is with the person through their entire experience on the 
refuge and provides services and takes care of the health and 
safety. So we would like to discuss with the Committee what is 
the right way to look at guides.
    We also know that there are issues that you will hear about 
later from Evan Hirsche about the issues about bookstores and 
things, issues that we think we probably can fit within the 
existing legislation, but we are happy to discuss that because 
we don't want to have an unintended adverse effect on good 
things that are already happening.
    Mr. Souder. Yes, and I share that. And certainly, at the 
very least, for existing refuge programs where you have such 
services, the National Parks concession bill is littered with 
this type of agreements. But I will say that the goal of this 
is to get some standardization. And I have seen the kind of 
pros and cons in the park Service at times the word 
``flexibility'' is important if it is technical, it is 
important if there was a whopper of an error made at the 
beginning. On the other hand, part of the goal of 
standardization is to limit some flexibility and to make sure 
that the concessionaire can make a reasonable financial bid 
without having the rules changed.
    So we want to have the bulk of this be standardized, 
understanding that in any new area, like Fish and Wildlife, 
hopefully you can learn from the Park Service, but you are 
going to have differences that may not be anticipated. I 
certainly believe that this was primarily targeted for how to 
expand site-based concessionaires inside a refuge and not to 
impact friends groups or existing relationships.
    However, I do believe that we have to be very careful in 
moving where new concessionaires move in, how to work with the 
friends groups in bookstores, how to work with--because in many 
parks they coexist. Sometimes they can't. It depends on the 
estimate of the volume, and presumably that is taken into 
consideration in the initial standardized contract. Same with, 
in some places, where some guide services would be refuge- or 
park-based and some would come in from the outside.
    But generally speaking, it isn't to upset any existing 
relationships in the refuge as it is to set for expansion. As 
long as we work with those kind of general guidelines, I am 
sure we can work out most of the technical questions.
    Mr. Jones. Congressman, I agree with everything you said, 
exactly. We agree that there needs to be standardization and we 
believe this bill will help us do that. We have a hodge-podge 
of things right now, where we have work-arounds because we 
don't have the authority. But we want to learn from the Park 
Service's experience, such as at Midway, so that we can have a 
program that this Committee would feel fully meets the letter 
and the spirit of the law and everything you have said.
    Mr. Souder. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Do you want to ask other questions of Mr. 
Jones when we come back?
    Mr. Souder. No, I am fine. We will work on the details.
    Mr. Gilchrest. Thank you, Mr. Souder. Thank you very much, 
Mr. Jones. We are going to recess now for three votes. We 
probably will be back in the neighborhood of 20 minutes. I 
think we are done with Fish and Wildlife. And again, thank you, 
Mr. Jones, very much.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Gilchrest. The Committee is in recess.
    [Recess.]
    Mr. Gilchrest. What's left of the Subcommittee will come to 
order. I appreciate everybody's patience.
    Our next panel will be Mr. Marshall Jones--oh. Mr. Marshall 
Jones has left. Left the building. Mr. Thomas Hook, Treasurer, 
Friends of blackwater Refuge. Welcome, sir.
    Mr. Hook. Thank you.
    Mr. Gilchrest. Dr. Edgar Bristow, President, Friends of 
Forsythe National Wildlife Refuge; Mr. Chip Campbell, 
President, Okefenokee Adventures, Inc.--sounds like a great 
organization; and Mr. Evan M. Hirsche, President, National 
Wildlife Refuge Association. Welcome to all of you. We look 
forward to your testimony. Thank you for crossing the Bay 
Bridge, Mr. Hook.
    Mr. Hook. It was a pleasure. Beautiful ride there this 
morning.
    Mr. Gilchrest. And we appreciate all of your attendance 
here this morning and we look forward to your testimony on 
these two pieces of legislation, and very often your insight on 
the ground as a compassionate yet objective observer of 
Government programs is always very useful. Mr. Hook, you may 
begin, sir.

            STATEMENT OF THOMAS A. HOOK, TREASURER, 
                  FRIENDS OF BLACKWATER REFUGE

    Mr. Hook. Thank you. I appreciate the opportunity to appear 
before the Committee this morning. My name is Tom Hook, and for 
over 5 years I've been the volunteer treasurer at the Friends 
of Blackwater. Friends of Blackwater is a tax-exempt 501(c)(3) 
organization of over 800 members and is an official cooperation 
association authorized by the Fish and Wildlife Service.
    In 2003, the Friends of Blackwater received the prestigious 
Friends Group of the Year award from the National Wildlife 
Refuge Association. We appreciate it, Evan, thank you very 
much.
    The mission of the Friends of Blackwater is to support the 
purposes of the Blackwater National Wildlife Refuge by working 
for the protection, preservation, enhancement of these precious 
lands through advocacy, environmental education, and outreach. 
In 2002, volunteers contributed over 19,000 hours of volunteer 
support to the Blackwater Refuge. That is the equivalent of 
over nine full-time employees. And Congress Gilchrest is one of 
our volunteers.
    Without the time and efforts contributed by volunteers, 
refuge management would have no choice but to forego many, if 
not all, of the projects I outline in my written testimony. 
This would mean there would be fewer and less valuable, fewer 
or no bird tours, fewer or no school orientation programs. The 
visitors center would be staffed by docents much less of the 
time, there would be fewer recreational facilities and 
opportunities like the photo blind, paddling trails, and hiking 
trails; less marsh, wetland, and forest restoration, and refuge 
staff would not have the behind-the-scenes support for the 
never-ending task of refuge maintenance, biological studies, 
and special projects.
    Blackwater is not the only refuge with a friends group or a 
cooperating association. There are over 230 such volunteer 
groups across the Nation supporting the refuge system. One of 
the most important volunteer jobs in the friends group is that 
of volunteer coordinator. This is the time-consuming and 
arduous task of making sure the visitors center is staffed by 
volunteers 363 days a year, keeping track of each individual's 
hours and contributions, making sure sufficient volunteers are 
available for tours and projects on the right day and at the 
right time and scheduling replacements when the original 
volunteer has a conflict, recruiting new volunteers, and 
serving as a volunteer clearinghouse for information.
    Clearly, this would be a job description for a full-time 
employee. However, neither Blackwater Refuge nor the Friends of 
Blackwater have an employee to handle these duties. These 
duties are handled by Maggie Briggs, the refuge outdoor 
recreation planner in addition to her regular duties and 
several volunteer volunteer-coordinators. Maggie and 
volunteering coordinators have done a tremendous job managing 
this task.
    We would like Blackwater to have a position available to 
handle the job, which will only grow in value as we undertake 
more and more refuge projects and refuge support activities. It 
would also free up Maggie to conduct more interpretive and 
educational activities, making Blackwater's outdoor programs 
even more valuable to the public.
    H.R. 2408 is an important piece of legislation for the 
refuge system. It continues the funding for volunteer 
coordinators hired since 1998 on those refuges that were given 
a volunteer coordinator staff position. This is good. However, 
I strongly urge you to consider expanding the Act to provide 
funding for more volunteer coordinators and make the funding 
available for additional full-time or part-time positions in 
order to provide more refuges with this critically needed 
support.
    We constantly receive requests from people who want to 
volunteer a few hours or days a week or a month, or who want to 
work on a particular project or who have a particular skill of 
interest. However, the task of managing those requests in 
addition to the current volunteer activities is too much for 
one person to handle in addition to their other full-time 
duties.
    My point is this: If we at Blackwater, in a small rural 
community with a population of just over 30,000, are in a 
position of not being able to handle the volunteers that come 
to us, I am certain there are many, many refuges across the 
country in the same position. Which means the valuable 
resources of many volunteers for the refuge system are not 
serving the refuge system or are going somewhere else to 
volunteer. The bottom line is the refuge system is missing out 
on valuable volunteer time and expertise that are there and are 
free for the asking.
    Before I close, I would like to acknowledge the support and 
encouragement the Friends of Blackwater receives from the 
management and staff of the Blackwater National Wildlife 
Refuge. Glenn Carowan, the refuge manager; Maggie Briggs, the 
outdoor recreational planner; and the entire staff of the 
refuge are truly our partners. We love what we do, and it would 
not be possible without the management and staff support we 
receive from the refuge.
    I want to thank you for this opportunity to support H.R. 
2408, and I would be glad to answer any of your questions. 
Thank you.
    [The prepared statement of Mr. Hook follows:]

  Statement of Thomas A. Hook, Representing The Friends of Blackwater 
             National Wildlife Refuge, Cambridge, Maryland

    My name is Tom Hook, I am the volunteer Treasurer for the Friends 
of Blackwater, a position I have held for over 5 years. I would like to 
thank the Committee for this opportunity to speak this morning in 
support of H.R. 2408, the extension of the National Wildlife Refuge 
System Volunteer and Community Partnership Enhancement Act of 1998.

WHO WE ARE & WHAT WE DO
    The Friends of Blackwater is a tax-exempt 501 c (3) organization of 
over 800 members from across the United States and Canada. Chartered in 
1987, the Friends of Blackwater is an official ``cooperating 
association'' authorized by the U.S. Fish & Wildlife Service.
    In 2003, the Friends of Blackwater received the prestigious 
``Friends Group of the Year'' award from the National Wildlife Refuge 
Association.
    The mission of the Friends of Blackwater is:
    ``To support the purposes of the Blackwater National Wildlife 
Refuge by working for the protection, preservation, and enhancement of 
these precious lands through advocacy, environmental education and 
outreach''.
    In carrying out this mission, the Friends of Blackwater volunteers:
    <bullet> Conduct educational Programs for elementary, middle and 
high school students,
    <bullet> Serve as docents and contact sources for the Visitors 
Center,
    <bullet> Conduct three educational ``Open House'' events each year 
directed at children, and support the annual ``Kid's Fishing Derby'',
    <bullet> Operate the Visitors Center bookstore, one of the best 
stocked wildlife bookstores on the Eastern Shore,
    <bullet> Conduct refuge orientation programs and guided tours,
    <bullet> Assist refuge management in biological studies, forest 
management projects, and forest restoration,
    <bullet> Conduct guided bird tours,
    <bullet> Apply for grants and raise funds and undertake major 
projects to enhance the educational and recreational assets of the 
refuge. Examples include:
      * Improving and replacing exhibits at the Visitors Center,
      * Constructing a new photo blind and observation deck,
      * Installing and operating an osprey cam on the Internet,
      * Planning and constructing over 20 miles of paddling trails, 
and
      * LPlanning and constructing over 4 miles of new hiking trails,
    <bullet> Working with the Dorchester County Department of Tourism 
to install and operate a tourist information radio station that 
broadcasts 24 hours a day,
    <bullet> Participating in and coordinating major wetland 
restoration projects on the refuge. Congressman Gilchrest and his staff 
were volunteers for the Barren Island marsh restoration project, and
    <bullet> Supporting the refuge staff in data entry, refuge 
maintenance, and special projects.
    While funding for these projects comes from grants, donations from 
the community, funds raised by the Friends through its fundraising 
activities, and partnerships with others, these efforts are conducted 
with volunteer management and support. In 2002, volunteers contributed 
over 19,000 hours of volunteer support to the Blackwater National 
Wildlife Refuge. That is the equivalent of over 9 full-time employees.

WHY ARE VOLUNTEERS IMPORTANT?
    Without the time and efforts contributed by the Friends of 
Blackwater volunteers, refuge management would have no choice but to 
forgo most if not all of the projects I just outlined.
    This would mean:
    <bullet> There would be fewer and less valuable educational 
programs, fewer or no bird tours, fewer or no school orientation 
programs,
    <bullet> The Visitors Center would be staffed by docents much less 
of the time, thus denying the public much of the valuable educational 
experience of the refuge,
    <bullet> There would be fewer recreational facilities and 
opportunities like the photo blind, paddling trails and hiking trails,
    <bullet> Less marsh and wetland restoration,
    <bullet> Refuge staff would not have the behind-the-scenes support 
for their never-ending task of refuge maintenance, biological studies, 
forest management and restoration, and special projects.
    Most importantly the public would be denied the rich diversity of 
the educational and recreational experiences the Blackwater Refuge has 
to offer.

THE VALUE OF VOLUNTEER COORDINATORS
    Blackwater is not the only refuge with a Friends Group or a 
Cooperating Association. There are over 230 such volunteer groups 
across the nation supporting the refuge system.
    One of the most important volunteer jobs in the Friends Group is 
that of Volunteer Coordinator. This is a time consuming and arduous 
task of making sure:
    <bullet> the Visitors Center is staffed by volunteers 363 days a 
year,
    <bullet> keeping track of each individuals' hours and 
contributions for reporting to Fish and Wildlife Service headquarters, 
and giving credit to the volunteers for their contributions,
    <bullet> making sure sufficient volunteers are available for 
tours, and projects on the right day, and at the right time,
    <bullet> scheduling replacements when the original volunteer has a 
conflict,
    <bullet> recruiting new volunteers, and
    <bullet> serving as a clearinghouse for volunteer information.
    With a volunteer membership of over 800 and a regular volunteer 
base of over 100 individuals, clearly this would be a job description 
for a full-time employee. However, neither Blackwater Refuge nor the 
Friends of Blackwater have an employee to handle these duties. These 
duties are handled by Maggie Briggs the refuge Outdoor Recreation 
Planner in addition to her regular duties, and several volunteer 
``Volunteer Coordinators''. Maggie and the volunteering coordinators 
have done a tremendous job managing this task. But we would like the 
refuge to have a position available to handle the job, which will only 
grow in value, as we undertake more and more refuge projects and refuge 
support activities. It would also free up Maggie to plan and conduct 
additional interpretive and educational activities, which would make 
Backwater's outdoor programs even more valuable to the public.
    H.R. 2408 is an important piece of legislation for the refuge 
system. It continues the funding for Volunteer Coordinators hired since 
1998 on those few refuges that were given a Volunteer Coordinator staff 
position. This is good. However, I strongly urge you to consider 
expanding the Act to provide funding for more Volunteer Coordinators, 
and make the funding available for additional full-time or part-time 
positions, in order to provide more refuges with this critically needed 
support.
    Funding more Volunteer Coordinators would mean more refuges could 
leverage the expense many times over by getting the volunteers needed 
to manage, conduct, and support refuge educational programs, projects 
and maintenance. We all know the Fish and Wildlife Service and the 
Wildlife Refuge System have limited budgets and more tasks than their 
budgets can handle. However, across the nation there are thousands of 
people with an infinite variety of skills that are willing to volunteer 
their time and expertise to the Refuge System if there were someone to 
coordinate those activities.
    We constantly receive requests from people who want to volunteer a 
few hours or days a week or a month, or who want to work on a 
particular project, or who have a particular skill or interest. 
However, the task of managing those requests in addition to the current 
volunteer activities is too much for one person to handle ``in addition 
to their full time job''.
    We do everything we can to accommodate these volunteer requests 
since we do not want any volunteer to go somewhere else. However, if we 
had a full time Volunteer Coordinator we could do so much more.
    My point is this. If we at Blackwater, in a small rural community 
with a population of just over 30,000 are in a position of not being 
able to handle the volunteers that come to us, I am certain there are 
many, many refuges across the country in the same position. Which means 
the valuable resources of many, many ``Volunteers'' for the refuge 
system are not serving the refuge system or are going somewhere else to 
volunteer. The bottom line is the refuge system is missing out on 
valuable volunteer talents and expertise that are there, and are free 
for the asking.
    While most of our volunteers are from the Eastern Shore, we have 
volunteers who regularly come from D.C., Baltimore, the rest of 
Maryland, Pennsylvania, New Jersey and Virginia. The public's love with 
and excitement for the Nation's Refuge system is a tremendous asset. It 
can be leveraged, and one of the best tools to do that is with 
Volunteer Coordinators. I encourage you to pass this bill, with 
additional funding for more coordinators.
    Before I close I would like to acknowledge the support and 
encouragement the Friends of Blackwater receives from the management 
and staff of the Blackwater National Wildlife Refuge. Glenn Carowan the 
Refuge Manager, Maggie Briggs the Outdoor Recreational Planner, and the 
entire staff of the refuge are truly our partners. We love what we do, 
and it would not be possible without the management and staff support 
we receive from the refuge.
    Thank you and I would be glad to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hook. You do 
represent a beautiful area of the world.
    Dr. Bristow.

        STATEMENT OF EDGAR C. BRISTOW, M.D., PRESIDENT, 
       FRIENDS OF FORSYTHE NATIONAL WILDLIFE REFUGE, INC.

    Dr. Bristow. Mr. Chairman, my name is Dr. Edgar Bristow. I 
am the president of the Friends of Forsythe, an organization 
that has been in existence now for approximately five to 6 
years, and I am also president emeritus of the Atlantic Audubon 
Society. I don't know why they did that one to me. But we have 
been volunteers at the refuge since 1981, working with the 
refuge.
    I was a witness for the original bill in 1997 and was 
delighted to be one of the refuges that got the first volunteer 
coordinators. So what I would like to do this morning is give 
you some idea of what the benefit of a volunteer coordinator 
is.
    First of all, there has been an improvement in the 
orientation and training of volunteers since we have had the 
coordinator. Previously it was done by the outdoor recreation 
planner who, with her many other duties, had very little time 
to spare for that. As a result, our volunteers are better 
trained and better able to serve the public.
    Reaching out to the community, we have been able to get 
folks involved that have never been involved before--everything 
from Boys and Girls Clubs to Scout groups to veterans groups to 
senior citizens, and everything in between--teenagers to old 
folks like me. We have been working on partnerships with local 
businesses for various projects that have benefited the refuge. 
We have been able to perform a number of some of the lesser 
maintenance requirements for the refuge that the maintenance 
staff simply couldn't keep up with--things like mowing the 
grass and trimming the trees along the trails, cleaning up, and 
similar kinds of projects. In fact, in one instance, when the 
visitors restroom facilities were in a very bad state of 
disrepair, it was members of the friends group who happened to 
be plumbers who volunteered to restore that to an operating 
condition.
    We have put on any number of events, including Refuge Day 
in the fall, International Migratory Bird Day in the spring, 
Make a Difference Day, and other special events through the 
year. We have provided funding for a number of refuge projects 
through the money that we have raised through our store 
operation, through grants, and through a couple of projects 
that we have undertaken. As a result, we have been able to fund 
a couple of reforestation projects, currently a salt marsh 
restoration project. We are working on some educational 
programs now as well. We provide educational programs for 
school classes that come to the refuge to learn more about the 
salt marsh and water quality as well as the wildlife and the 
birds that are there. We also provide guides for tour groups. 
We work with the local tourism council in order to provide 
services to those groups.
    As a result of this we are seeing increasing use of the 
refuge and more importantly to my mind is we are seeing an 
increased diversity in the types of people who are using the 
refuge. Rather than being just a mecca for birdwatchers as it 
has been for many years, Forsythe Refuge now offers a lot of 
opportunities, including cycling and walking, strolling along 
woodland trails, strolling along marsh trails, use of 
telescopes to observe some of the more distant things. Our 
friends store provides rental binoculars for anybody who forgot 
to bring their binoculars with them when they come, and so on. 
So as a result of that, we are seeing a great deal more work 
done here.
    My recommendation is to, yes, this bill should be passed, 
providing more support. More refuges need volunteer 
coordinators so the same kind of good things can happen there 
as is happening at Forsythe Refuge. And we look forward to 
working with whoever is involved in planning this out over the 
years.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions you have.
    [The prepared statement of Dr. Bristow follows:]

            Statement of Edgar C. Bristow, M.D., President, 
           Friends of Forsythe National Wildlife Refuge, Inc.

    Mr. Chairman, I am Dr. Edgar C. Bristow, President of Friends of 
Forsythe N.W.R. Inc. (hereafter designated as ``Friends''), the support 
group for the Edwin B. Forsythe National Wildlife Refuge in New Jersey. 
I am also President Emeritus of the Atlantic Audubon Society, the local 
chapter of the National Audubon Society, which is also a support group 
for the Forsythe Refuge. I had been a witness before this Committee 
when the original bill was considered in June, 1997, and am here today 
to provide information on the effects of that bill over the intervening 
years, and to support the passage of H.R. 2408. I would also make some 
comments on H.R. 1204, a bill to establish a National Wildlife Refuge 
System Concession Policy.
    Our Friends group had just organized and was beginning to work out 
our relationship with staff and the Audubon Refuge Keeper group. The 
employment of a Volunteer Coordinator under the terms of the bill 
allowed for better coordination and smoother action. Our corps of 
volunteers has grown to well over 100, varying in age from teenagers to 
older retired folks like myself. Many activities have involved other 
community groups ranging from Boys & Girls clubs and scout groups to 
veterans groups and senior citizens. Working with the volunteer 
coordinator has enabled the Friends to be an effective force for 
providing both manpower and resources for which the refuge did not have 
any budgeted funds.
    The Volunteer Coordinator has provided better orientation and 
training for all volunteers. A Garden group was established to plan and 
install a Native wildflower garden to enhance the appearance of the 
headquarters building and to serve as a teaching tool for visitors 
interested in planning their own gardens to benefit wildlife. A small 
group of handicapped citizens have also been working with the garden 
volunteers helping them to feel more useful.
    Under the auspices of the Friends, a camera club was started and 
has now been incorporated into the Friends organization, providing 
photographic assistance to the Refuge, chronicling activities, animals, 
plants and other aspects of the Refuge. The group has also established 
a working relationship with MotoPhoto for support of photo contests, as 
well as expertise in film development. The Audubon Society and Friends 
continue to provide survey teams to do a weekly count of waterbirds 
using the Refuge.
    Volunteers are involved in many routine maintenance jobs, including 
trail clearing, mowing grassy areas, checking nest boxes, monitoring 
the weather station, doing water quality studies in the impoundments 
and performing minor repairs under the supervision of the maintenance 
staff. All groups work smoothly together under the direction of the 
Volunteer Coordinator
    Both Friends and Audubon, working together, have managed Refuge Day 
activities, International Migratory Bird day events and Make-a-
Difference Day projects. Friends have operated a small gift and 
information shop on weekends through spring and fall, providing 
information, selling annual passes and selling items related to Refuge 
activities such as field guides, T-shirts, hats and assorted gift 
items. Completion of an exhibit, preparation of a trail and auto tour 
route map for visitors and funding printing of a coloring book to 
accompany the Puppet Show ``At the Refuge'' are examples of other 
projects.
    Under the guidance of the Volunteer Coordinator, Friends have 
developed a small model ``T.R. Bear'' to celebrate the start of the 
Refuge System by President Theodore Roosevelt during this Centennial 
Year. Our Friends group also funded a Centennial CD with music composed 
and performed by Fish & Wildlife staff and volunteers. Both items were 
made available to the various units of the Service at both wholesale 
and retail rates. All proceeds are going to benefit Forsythe Refuge.
    Other activities of Friends include providing guides for tour 
groups visiting the Refuge, providing visiting student groups with 
guides and instructors, and working with staff on outreach programs. 
Most recently, Friends hosted a ``Hooked on Fishing'' day, working with 
grants from WalMart, local sportsmen's clubs, and the State Fish & Game 
Department. It is expected that this will become an annual event.
    In addition to my work with our local group, I have also been part 
of the Friends Mentoring Program under the Friends Initiative. I have 
been privileged to assist several other refuge Friends groups to 
organize and more effectively work with their Refuge staff, and expect 
to continue that effort this year. Since each group and refuge presents 
a different set of issues, problems, opportunities and personalities, 
such visits provide an ever-changing array of challenges to the 
mentoring teams. It is my firm belief that this program has provided 
the units of the Fish and Wildlife System with a tool that greatly 
enhances their ability to interact with the public. Friends groups help 
to improve the public's understanding of the nature of the system and 
its role in caring for the natural world that is so important to us 
all.
    Finally, observations over the past five years through our store 
operations, we have seen a continuing increase in public use of our 
Refuge. Not only are visitor numbers increasing, now reaching 300,000 a 
year, but we are also seeing an ethnic diversity that had not been 
present in the past. For many, the Refuge is a peaceful oasis conducive 
to quiet reflection. For others, it represents a window into the 
natural world that is hard to find in the midst of ever encroaching 
development. For some, it even represents an opportunity to get some 
exercise as they bicycle around our eight mile Wildlife Drive.
    In summary, it is my considered opinion that the National Wildlife 
Refuge Volunteer Act has been a major success story since the original 
Act was passed. Its continuation will provide Refuges with willing, 
skilled and committed citizens to help the staff fulfil their mandates 
under the various laws in a more thorough and timely fashion. However, 
this can never be a substitute for more adequate funding for Operations 
and Maintenance, filling staff positions already designated and 
providing full funding for land acquisitions under the Land and Water 
Conservation Fund.
    In regard to H.R. 1204, the Concessions Policy Act, there should be 
a specific reference under Sec. 5, (b)(2)(B) to retail sales outlets 
operated under a Cooperative Agreement as well as ``volunteers''. Many 
outlets are staffed only by volunteers, including ours. In some cases, 
regular staff may also assist. I am assuming that the determination of 
suitability of items offered for sale will be made by the project 
leader, under the authority granted by the Secretary. Friends groups 
should have the right of first refusal on any proposed concession. 
Concession service provided by Friends would be more beneficial to the 
Refuge, since a larger portion of the proceeds would return to the 
Refuge through Friends. A commercial operation would have higher 
operating costs, and would be returning only a percentage of the lower 
profits. If the Friends do not feel that they can provide such service, 
there would then be an opportunity for competitive bidding by 
commercial vendors to provide that service.
    Thank you for the opportunity to testify here today. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Bristow, for 
traveling to D.C.
    Mr. Campbell.

 STATEMENT OF CHIP CAMPBELL, PRESIDENT, OKEFENOKEE ADVENTURES, 
    INC., OKEFENOKEE NATIONAL WILDLIFE REFUGE CONCESSIONAIRE

    Mr. Campbell. Good morning, Mr. Chairman and members of the 
Committee. I want to thank you for giving me the opportunity to 
speak in support of H.R. 1204. I do believe the passage of this 
bill is important to the public use and support of our 
country's outstanding national wildlife refuge system.
    My wife, Joy, and I own and operate Okefenokee Adventures, 
Inc. in Folkston, Georgia. In the spring of 2000 we were 
awarded the concession contract for the Okefenokee National 
Wildlife Refuge's east entrance, which is also known as the 
Suwannee Canal entrance. We began operations on September 1st 
of 2000.
    I will refer you to my written statements for some 
descriptions of the refuge, but I would like to extend an 
invitation to everyone to come see it. It is an extraordinary 
place, the largest national wildlife refuge east of the 
Mississippi. It is the most ecologically intact of all the 
large Southern wetland areas. And it is our business to help 
visitors understand and appreciate the extraordinary ecological 
dynamics, wilderness values, and cultural history of the 
Okefenokee Swamp.
    In doing so, we help to further the missions and purposes 
of the national wildlife refuge system while engaging in a 
compatible private enterprise that contributes directly to the 
local economy. Our commitment to developing a high-quality 
visitors services operation was the centerpiece of our contract 
proposal. And we have worked hard to meet that commitment, and 
we are gratified to note that Fish and Wildlife Service 
management, the local community, and our regular visitors at 
Okefenokee tell us that our efforts have succeeded. We view our 
relationship with the refuge public-use program as that of a 
cooperating partnership and our role as that of a liaison 
between refuge management and the visiting public.
    While public use is understandably and properly a priority 
secondary to conservation on a national wildlife refuge, it is 
a significant factor on a refuge that attracts approximately 
400,000 visitors each year from the local communities, across 
the United States, and around the world.
    To give you some background, a Georgia Department of 
Industry, Trade and Tourism study reveals that Okefenokee 
visitors produce an annual economic impact of $55-60 million 
for the three Georgia counties in which the refuge is located. 
In 2000, overall tourism expenditures in these counties totaled 
77.2 million. According GDITT data, tourism supports 66 
businesses and provides 1,083 jobs in this same three-county 
area.
    We have three entrances to the refuge. The one where I am 
located is the primary refuge entrance, which is located on the 
east side near Folkston, Georgia, and about half of our refuge 
visitors come through our entrance. The facilities provided to 
our company under our concession contract are located onsite at 
the Suwannee Canal entrance.
    The facilities consist of two buildings--an 1800-square-
foot climate-controlled building, and a 900-square-foot storage 
shed. Along with the visitors center, the structures were built 
in the late 1960's to replace the dilapidated shacks of a fish 
camp that had operated at the site, and the buildings were 
completed about 1970. They are immediately adjacent to a boat 
basin that includes a 400-foot wooden bulkhead and dock, 25 
finger docks, and a concrete boat ramp. And we also have an oil 
and gas house for hazardous materials storage, and a 500-gallon 
above-ground fuel tank away from the water's edge, across a 
paved parking area.
    At the time of their completion in the early 1970's, these 
structures served a site that was really primarily and access 
for fishermen. And over the years, I have observed considerable 
upgrades to that facility. When I was a boy, only half of the 
main building was wired. There were some beanie-weenies and 
some sardines and that kind of thing there, but not a whole lot 
else.
    Over the years, as the visitor demographics shifted--and we 
still do get fishermen, especially in the spring--but as time 
went on in the 1980's and 1990's, our visitor demographics very 
much have shifted toward traveling families and retirees, 
birders, wildlife photographers, canoeists, and other outdoor 
recreationists--so-called eco-tourists or nature-based 
tourists. And the previous concessionaire began to bring in 
more items for that market, such as T-shirts and rubber 
alligators and other souvenirs. They did have to remove a fish-
cleaning station there at the edge of the boat basin--it became 
too attractive to the alligators--and replaced it with a picnic 
area immediately adjacent to the boat basin.
    Today using these facilities, we provide a full range of 
services. We have about maxed out the facilities that we have 
there. We operate 364 days a year, every day except Christmas. 
We have five tour boats. We conduct interpretive tours for 
individuals, families, and organized groups. We have 12 
employees, most of whom work full-time or nearly so. We conduct 
custom walking tours for birders and photographers on the 
refuge trails and boardwalk. And in addition to our 
interpretive tours, we have 60 canoes, 22 kayaks, and 23 
motorized skiffs, all of them with four-stroke motors, 
available for rent. We rent camping gear, fishing gear, 
bicycles. We have a gift shop that includes a variety of 
nature- and swamp-related souvenirs, educational toys and local 
crafts, and we operate a full-service food-service operation, 
which provides good sandwiches and hot meals to the visiting 
public, organized groups, and refuge personnel--which they 
appreciate.
    We have had a lot of support from the refuge managers, the 
staff, our volunteers and AmeriCorps crews since we began 
operations. At the same time, we have become aware of the 
critically--or the extremely limited funding available to 
maintain and repair our facilities. Now, critical materials 
such as replacements for rotten dock boards--they have been 
obtained promptly. But other projects languish for lack of 
funds. If H.R. 1204 becomes law, necessary maintenance projects 
could be funded directly from our concession revenues, and 
things like dock boards and nails, keeping a ready supply on 
hand, replacing the tiling in the building and our bathroom 
facilities, which have been there for quite a long time, really 
need to be completely renovated.
    In addition to these basic maintenance and repairs, the 
provisions for funding facility enhancements are very appealing 
to us. A new concession building has been identified as a 
priority for the refuge. Though we assume that major facility 
enhancements, such as new building construction, would continue 
to require special project grants or appropriations, the 
proposed amendment would help provide funding for substantial 
facility enhancements. And other that we can think of are a 
proposed boardwalk, the trailhead to which is slated to be 
immediately adjacent to our facility; new observation decks or 
benches; upgrades to the composting toilets on our wilderness 
canoe trail system; construction--or reconstruction, more 
accurately--of new canoe trail camping platforms; and some 
landscaping with native plants. These are all things that are 
planned that we could help with that would be of direct 
relation to our business. But it is our opinion that any refuge 
projects receiving our concession fees, however unrelated to 
the public-use program, ultimately do benefit our interest.
    An important point that I do respectfully urge the 
Committee to consider, the proposed change should represent a 
net gain for refuge public use program funding. If, as I 
understand it, one of the purposes of H.R. 1204 is to provide 
refuge managers with greater incentives to enter into 
concession contracts that enhance the public-use programs, the 
proposed change will need to provide revenues that supplement 
other funding sources, rather than replacing them.
    I do wish to thank Congressman Souder for introducing this 
important and necessary legislation. It makes good business 
sense for everyone. And I want to say that it is a privilege 
and the realization of a lifelong dream to serve as the 
Okefenokee National Wildlife Refuge's concessionaire. And it is 
a tremendous honor to share my views here today. Thanks a lot, 
and if you have any questions, I will be happy to answer them.
    [The prepared statement of Mr. Campbell follows:]

 Statement of Chip Campbell, President of Okefenokee Adventures, Inc., 
    Okefenokee National Wildlife Refuge Concessionaire, on H.R. 1204

    Mr. Chairman and members of the Committee, thank you for giving me 
the opportunity to speak in support of H.R. 1204. I believe that the 
passage of this bill is important to the public use and support of our 
country's outstanding National Wildlife Refuge system.
    My wife, Joy, and I own and operate Okefenokee Adventures, Inc. in 
Folkston, Georgia. In the spring of 2000, we were awarded the 
concession contract for the Okefenokee National Wildlife Refuge's East 
Entrance, also known as the Suwannee Canal Entrance. Okefenokee 
Adventures began operations on September 1, 2000.
    Established in 1937, Okefenokee National Wildlife Refuge is the 
largest National Wildlife Refuge in the eastern United States, 
encompassing 396,000 acres of the 438,000-acre Okefenokee Swamp, a vast 
peat wetland complex of cypress, bay, gum and pine forests, dense shrub 
bogs, freshwater marshes, small lakes and streams. In a region that 
abounds with wetlands, Okefenokee is ``The Swamp''. The most 
ecologically and hydrologically intact of the great Southern wetlands 
and the largest blackwater swamp ecosystem in the world, it is also a 
landscape of incomparable beauty. Home to hundreds of black bears and 
thousands of American alligators, as well as endangered woodpeckers, 
threatened tortoises, and a tangled riot of birds, frogs, dragonflies 
and vegetation, the Okefenokee is a natural wildlife refuge. Although 
it bears the fading scars of human economic endeavors, including a 
failed drainage attempt in the late 19th century and successful logging 
operations in the early 20th century, it remains one of the most 
fundamentally wild places in America. In recognition of its enduring 
wilderness qualities, in 1974 Congress designated 354,000 acres of the 
Okefenokee as a Federal Wilderness Area.
    The human history of the Okefenokee is as rich as its biological 
diversity and its wilderness values. Once inhabited by people of 
Woodland and Mississippian cultures whose burial mounds dot the 
interior islands and upland edges, the Okefenokee was later home to 
Timucuan and then Seminole before being settled by frontier folk of 
extraordinary toughness and self-reliance: the ``swampers''. Today the 
residents of Okefenokee communities take great pride in the colorful 
history and folklore of their swamper heritage.
    As the Okefenokee National Wildlife Refuge's concessionaire, it is 
the business of Okefenokee Adventures to help visitors understand and 
appreciate the extraordinary ecological dynamics, wilderness values and 
cultural history of the Okefenokee Swamp. In doing so, we help to 
further the mission and purposes of the National Wildlife Refuge system 
while engaging in a compatible private enterprise that contributes 
directly to the local economy. Our commitment to developing a high-
quality visitor services operation was the centerpiece of our contract 
proposal. We have worked hard to meet that commitment, and we are 
gratified to note that U.S. Fish and Wildlife Service management, the 
local community, and Okefenokee regulars tell us our efforts have 
succeeded. We view our relationship with the Refuge public use program 
as that of a cooperating partnership and our role as that of a liaison 
between Refuge management and the visiting public.
    While public use is understandably and properly a priority 
secondary to conservation on a National Wildlife Refuge, it is a 
significant factor in the management and operation of a Refuge that 
attracts approximately 400,000 visitors each year from the local 
communities, across the United States, and around the world.
    A Georgia Department of Industry, Trade and Tourism study reveals 
that Okefenokee visitors produce an average annual economic impact of 
$55-$65 million for the three Georgia counties, Charlton, Clinch and 
Ware, in which the Refuge is located. In 2000, overall tourism 
expenditures in these counties totaled $77.2 million. According to 
GDITT data, tourism supports 66 businesses and provides 1,083 jobs in 
this same three county area. The Okefenokee National Wildlife Refuge 
administers three public entrances under varying arrangements. A 
private attraction, Okefenokee Swamp Park, on the north side of the 
swamp in Ware County near Waycross, Georgia, receives about 80,000 
visitors per year. On the swamp's Clinch County side near the small 
town of Fargo, the State of Georgia operates Stephen C. Foster State 
Park under a lease agreement with the U.S. Fish and Wildlife Service, 
which provides access for approximately 120,000 visitors per year. And 
about half of the Okefenokee's visitors, approximately 200,000 people 
per year, come through our entrance, the East Entrance, located in 
Charlton County south of Folkston, Georgia. The East Entrance serves as 
the primary National Wildlife Refuge entrance.
    The facilities provided to our company, Okefenokee Adventures, 
under our concession contract with the U.S. Fish and Wildlife Service 
are located onsite at the East Entrance, which was formerly known as 
the Suwannee Canal Recreation Area and historically known as Camp 
Cornelia. These facilities consist of two buildings: an 1800-sq. foot, 
climate-controlled building and a 900-sq. foot storage shed without 
climate control. Along with the Refuge Visitor Center, these structures 
were built in the late 1960's to replace the dilapidated shacks of a 
fish camp that had operated at the site. The buildings were completed 
about 1970 and are immediately adjacent to a boat basin that includes a 
400-foot wooden bulkhead and dock, twenty-five (25) 15-foot long 
``finger'' docks, and a concrete boat ramp. A 6 X6'' oil/gas house for 
hazardous material storage and a 500-gallon above-ground fuel storage 
tank are located away from the water's edge across a paved parking 
area.
    At the time of their completion in the early 1970's, these 
structures served a site that was primarily an access for fishermen. 
According to Refuge officials, the projected useful life of the 
buildings was 20 years. They are still in use, although the primary 
public uses have changed and visitor numbers have increased.
    Over the years, I have observed numerous renovations of this 
service area as the operators have sought to accommodate changing 
visitor needs. When I was a boy, we purchased fish bait and tackle in a 
tiny waterside shop that offered little in the way of visitor amenities 
beyond Vienna sausages, beanie-weenies and soda crackers. A counter was 
located in the half of the larger building that was wired for 
electricity. The other half of the building was unwired and used for 
storage.
    As visitor numbers increased, the larger building's former storage 
area was enclosed and wired. The building's electricity, air 
conditioning and plumbing systems were extended into the expansion. 
Restroom facilities were constructed, although they could not (and 
still cannot) be accessed from the building's interior. In the 1980's 
and 1990's, as visitor demographics continued to shift towards 
traveling families and retirees, birders, wildlife photographers, 
canoeists, and other outdoor recreationists--so-called ``ecotourists'' 
or ``nature-based tourists --items such as T-shirts, postcards, rubber 
alligators and other souvenirs appeared on concession shelves. The 
Refuge removed a fish cleaning station beside the boat ramp that had 
become far too attractive to the boat basin's resident alligators and 
replaced it with an attractive and handicapped-accessible 1,100-sq. 
foot picnic deck. The 900-sq. foot outbuilding was divided into three 
rooms to accommodate storage and workshop needs, and a 40-foot canoe 
storage rack was constructed. In the late 1990's, the previous 
concessionaire converted a back room into a small kitchen, primarily to 
prepare meals for organized groups.
    Today, using these same facilities, our company, Okefenokee 
Adventures, provides a full range of visitor services. We are open 364 
days a year (every day except Christmas) from half an hour before 
sunrise until 5:30 p.m. during Daylight Saving Time and until 7:30 p.m. 
during Standard Time. We have 12 employees, most of whom work full-time 
or nearly so. With 5 tour boats, we conduct guided interpretive tours 
for individuals, families and organized groups. We also offer guided 
half-day and full-day canoe and kayak tours by arrangement, and we 
outfit and guide multi-day excursions on the Refuge wilderness canoe 
trail system. We conduct custom walking tours for birders and 
photographers on the Refuge's upland trails and ``-mile boardwalk. In 
addition to our interpretive tours, we have 60 canoes, 22 kayaks, and 
23 motorized skiffs available to rent for self-guided explorations. We 
also rent camping gear, fishing gear, and bicycles, which visitors use 
to observe wildlife along our drive. We sell Georgia hunting and 
fishing licenses. Our gift shop inventory includes a variety of swamp 
and nature-related souvenirs, educational toys and local crafts. In 
addition to packaged snacks, beverages, and ice cream, we have expanded 
the facility's limited kitchen into a full service food service 
operation, Camp Cornelia Cafe, which serves quality sandwiches and hot 
meals to the visiting public, organized groups, and Refuge employees.
    Since Okefenokee Adventures began operations September 1, 2000, we 
have enjoyed tremendous assistance and support from Okefenokee National 
Wildlife Refuge managers, staff, volunteers, and AmeriCorps crews. At 
the same time, we are aware of the extremely limited funding available 
to repair and maintain our facilities. While critical materials such as 
replacements for rotten dock boards have been obtained promptly, other 
projects languish for lack of funds. If H.R.1204 becomes law, necessary 
maintenance projects could be funded from our concession revenues. We 
need a ready supply of replacement dock boards and nails. The ceramic 
tiles in the original half of our main building do not match the 
linoleum tiles of the expansion and kitchen, and they are all badly 
discolored and worn, so we would like to replace our tiling. Our 
bathroom fixtures are old and corroded and need to be replaced: in 
fact, we would like to renovate the bathrooms completely. And we can 
identify several repairs and upgrades to our kitchen facilities that 
would probably please our county health inspector.
    In addition to basic maintenance and repairs, the provisions for 
funding of facility enhancements are appealing. A new concession 
building has been identified as a priority by the Refuge. Though we 
assume that major facility enhancements such as new building 
construction would continue to require special project grants or 
appropriations, the proposed amendment could help provide funding for 
substantial facility enhancements. Examples that would be of direct 
benefit to Okefenokee Adventures' interests could include the proposed 
Mizell Prairie boardwalk, the trailhead for which is slated to be 
located adjacent to our facility; new observation decks and/or benches; 
upgrades to the composting toilets at the wilderness canoe trail 
campsites; construction of new canoe trail camping platforms; and new 
landscaping with native plants. If, as proposed, H.R. 1204 assures that 
Revenue Sharing Program payments will not be affected, it seems 
reasonable to conclude that returning our concession fees to the 
Okefenokee would provide a net gain for the Refuge and the local 
economy and preferable to the current situation. Furthermore it is our 
opinion that any Refuge projects receiving our concession fees, however 
unrelated to the public use program, ultimately benefit our business 
interests.
    An important point that I respectfully urge the Committee to 
consider: the proposed change should represent a net gain for Refuge 
public use program funding. If, as I understand it, one of the purposes 
of H.R. 1204 is to provide Refuge managers with greater incentives to 
enter into concession contracts that enhance their public use programs, 
the proposed change will need to provide revenues that supplement other 
funding sources rather than replacing them.
    In conclusion, I wish to thank Congressman Mark E. Souder for 
introducing this important and necessary legislation. It makes good 
business sense for Refuge concessionaires, Refuge managers and Refuge 
public use programs--and, by extension, it makes good business sense 
for the local communities in which National Wildlife Refuges are 
located.
    It is a privilege and the realization of a lifelong dream to serve 
as the Okefenokee National Wildlife Refuge's concessionaire. And it is 
a tremendous honor to be asked to share my views today. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Campbell. Is the 
theme song for your concession ``Dueling Banjos''?
    Mr. Campbell. They have actually used that on the local 
Chamber of Commerce website. We told them that is probably not 
sending the right message.
    Mr. Gilchrest. Well, the very beginning part of the movie, 
when they actually played it, just tell everybody to forget 
about the rest of the film.
    Mr. Campbell. Right.
    Mr. Gilchrest. Just that one scene with that little boy on 
the bridge. That was--you know, you could cut that off right 
there. Great song, though.
    Mr. Campbell. It is.
    Mr. Gilchrest. Mr. Hirsche.

           STATEMENT OF EVAN M. HIRSCHE, PRESIDENT, 
              NATIONAL WILDLIFE REFUGE ASSOCIATION

    Mr. Hirsche. Thank you, Mr. Chairman. I would like to start 
by saying that I am honored to sit at the same table with two 
of the finest refuge friends groups in the system--in fact, the 
Friends of Blackwater received the Refuge Association and the 
Fish and Wildlife Foundation's Refuge Friends Group of the Year 
award this year--and among the finest concessionaires in the 
system, with Chip. So, an honor.
    Mr. Chairman, my name is Evan Hirsche. I am president of 
the National Wildlife Refuge Association. On behalf of the 
association and its nationwide membership of individuals and 
friends affiliate groups, thank you for the opportunity to 
offer comments on H.R. 1204 concerning concessions activities 
on refuges, and H.R. 2408 reauthorizing the National Wildlife 
Refuge System Volunteer and Community Partnership Enhancement 
Act.
    Before proceeding with my remarks, I would like to submit 
written testimony for the record.
    Mr. Gilchrest. Without objection.
    Mr. Hirsche. Thank you, Mr. Chairman.
    As the only national organization dedicated exclusively to 
supporting the refuge system, the Refuge Association has a 
fundamental interest in both the operation of concessions and 
use of volunteers on refuges. From the outset, we want to 
affirm that, while we are strong supporters of the wildlife-
first mission of the refuge system, we also recognize that 
providing opportunities for the public to engage in compatible 
wildlife-oriented recreational activities on refuges 
contributes to building community support for these lands and 
waters. With an anticipated visitation of more than 40 million 
during this refuge system centennial year--and that accounts 
for about a 100 percent increase since 1990, an enormous 
increase--the Committee has chosen an appropriate time to take 
up the issue of concessions.
    In considering such legislation, it is of the utmost 
importance, in our view, that programs and facilities meant to 
provide a positive experience for visitors safely meet demand 
while not detracting from the important conservation activities 
that refuges are charged with implementing. We thank 
Representative Souder for introducing H.R. 1204 and appreciate 
his interest in ensuring these goals are met.
    We are concerned, however, that the legislation as written 
will create incentives for financially stressed refuges to 
allow concessions that may not meet strict compatibility 
guidelines. While all concession activities will be required to 
meet compatibility determinations under law, the lure of 
increased operations and maintenance funding for refuges could 
result in refuge professionals tilting their decisions in favor 
of allowing a concession in situations where they might 
otherwise err on the side of caution.
    To minimize this potential problem, the Refuge Association 
recommends that language be modified in the act, or in the 
bill, to more specifically limit fee expenditures to facilities 
improvement and services that are directly related to the 
concession.
    We are pleased, however, that the bill includes Section 7, 
which requires an annual accounting of concession activities, 
believing that this will provide a valuable level of oversight. 
Nevertheless, it is our opinion that stronger sideboards are 
needed on the scope of fee expenditures. An additional way to 
better ensure that concessions activities remain consistent 
with the conservation objectives of refuges is to offer a right 
of first refusal to refuge friends groups on the units where 
they exist.
    Another point on this legislation, and with further respect 
to friends groups, the Refuge Association recommends that H.R. 
1204 should explicitly exclude friends group bookstores 
operated by friends and cooperating associations from 
regulations governing concessions. For many of these groups, 
operating refuge bookstore retail outlets are important funding 
sources to support friends activities in connection with 
refuges, and we wouldn't want to, I think, hinder that.
    Moving now to comments on H.R. 2408, concurrent with the 
growth of refuge friends has been the dramatic expansion of 
volunteer activity on refuges. In 1982, roughly 4,000 
volunteers provided support for refuges; in 2002, the number, 
according to Fish and Wildlife is 34,000 volunteers 
contributing more than a million hours of service and, by their 
estimates, equals roughly 20 percent of the refuge system's 
staffing--an exceptional number.
    The National Wildlife Refuge System Volunteer and Community 
Partnership Act recognizes the important role that volunteers 
play at refuges and provides the Fish and Wildlife Service with 
additional tools and incentives to expand an already impressive 
refuge system volunteer work force. And we thank Representative 
Saxton for introducing H.R. 2408, which would reauthorize what 
we consider extremely valuable legislation.
    Overall, the Act has yielded strong results, particularly 
in the area of placing volunteer coordinators on refuges. As 
Mr. Jones pointed to earlier, 16 refuges were selected for 
participation in the pilot project, and we witnessed an 
extremely strong growth in volunteering as a result. We have 
spoken with several of these refuges, and all were grateful for 
the staffing additions and expressed real enthusiasm about the 
resulting programmatic achievements.
    In reauthorizing this act, we support two modifications 
that we believe will strengthen the legislation. First, we 
request the Committee support an amendment that would enable 
Fish and Wildlife Service to transfer project funds to its 
refuge partners and provide needed contracting flexibility. In 
several instances since passage of the act, partner groups 
engaged in developing large projects, such as visitors centers, 
encountered unanticipated hurdles as a result of restrictions 
on the service's ability to transfer funds.
    The Refuge Association also supports an amendment to ensure 
that the maximum amount of funding generated through friends 
group activities is returned to sustain their important 
conservation work on refuges. Specifically, the association 
requests that the Committee support a provision in the 
reauthorized Act that reduces the frequency of required audits, 
averaging about 6,000 apiece for groups generating more than 
$250,000 in annual sales. Our recommendation would be to change 
from one per year to once every 3 years.
    In concluding, with respect to H.R. 1204, we believe 
changes can be made to ensure that this legislation addresses 
maintenance needs related to concessions activities while also 
preserving the mission and purposes of refuges. Further, an 
exemption in this legislation for agreements with friends 
groups to operate bookstores on refuges will ensure that groups 
have a valuable and continued revenue source with which to make 
significant contributions to refuges. Concerning H.R. 2408, the 
Refuge Association strongly supports this legislation and we 
will look forward to working with the Committee to strengthen 
the legislation to allow greater flexibility for Fish and 
Wildlife Service to contract with its partners while also 
ensuring friends return as much revenue as possible back to 
refuges.
    Thank you, Mr. Chairman. This concludes my testimony.
    [The prepared statement of Mr. Hirsche follows:]

               Statement of Evan M. Hirsche, President, 
    National Wildlife Refuge Association, on H.R. 1204 and H.R. 2408

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the National Wildlife Refuge Association (NWRA), and 
its nationwide membership consisting primarily of refuge professionals 
and members of the 240 refuge Friends volunteer groups representing an 
estimated 40,000 individuals, thank you for the opportunity to offer 
comments on H.R. 1204, concerning concessions activities on refuges, 
and H.R. 2408, reauthorizing the National Wildlife Refuge System 
Volunteer and Community Partnership Enhancement Act of 1998.
    As the only national organization dedicated to the protection, 
enhancement and expansion of the Refuge System, the Refuge Association 
has a fundamental interest in both the operation of concessions and use 
of volunteers on refuges.
    As a member of the Cooperative Alliance for Refuge Enhancement 
(CARE), we are also acutely aware of the need to address the System's 
massive operations and maintenance backlog if these vital conservation 
lands and waters are to successfully ensure that wildlife populations 
remain both plentiful and diverse in this new century.
H.R. 1204--Concessions on Refuges
    In our view, H.R. 1204 raises important issues as well as questions 
and we look forward to working with the Committee to address these as 
this legislation moves forward. We wish to thank Representative Souder 
for his continuing interest in having refuges directly benefit from 
concessions fees generated on site.
    From the outset, we want to affirm that, while we are strong 
supporters of the ``wildlife first'' mission of the Refuge System, we 
also recognize that providing opportunities for the public to engage in 
compatible, wildlife-/oriented recreational activities on refuges 
contributes to building community support for these lands. Furthering 
public understanding and appreciation for refuges can help us ensure a 
well-tended Refuge System in the years ahead.
    With an anticipated visitation of more than 40 million during this 
the Refuge System Centennial year--a 100 percent increase from 1990--
the Committee has chosen an appropriate time to again take up the issue 
of concessions. In considering such legislation, it is of the utmost 
importance that programs and facilities meant to provide a positive 
experience for visitors safely meet demand while not detracting from 
the important conservation activities that refuges are charged with 
implementing.
    The NWRA applauds H.R. 1204 for seeking to address this challenge 
by allowing concessionaires to allocate fees that would otherwise be 
directed off the refuge, to instead improve concessionaire facilities 
on site. It appears that the intent of the legislation is to ensure 
funding otherwise allocated to concession facility upkeep could then be 
directed to other critical refuge needs.
Incentives for Allowing Concessions
    We are concerned, however, that the legislation will create 
incentives for financially stressed refuges to allow concessions that 
may not meet strict compatibility guidelines. As currently crafted, the 
language in Sec. 5(f)(2)(C) could conceivably allow fees to support 
everything from major expansion of visitor centers to habitat 
restoration. In our view such a broad array of authorized uses is 
fertile ground for abuse.
    While all concessions activities will be required to meet 
compatibility determinations under the National Wildlife Refuge System 
Improvement Act, the lure of increased operations and maintenance (O&M) 
funding for refuges could result in refuge professionals tilting their 
decisions in favor of the allowing the concession in situations where 
they might otherwise err on the side of caution.
    Concessions currently operate on at least 7 refuges and at first 
glance it might appear that the opportunities to operate lucrative 
businesses on other units are limited. As for-profit ventures, however, 
private concessions must devise strategies to lure more customers and 
provide more services to ensure long-term profitability. From our 
perspective, there are numerous untapped possibilities that might 
represent outstanding opportunities for concessionaires where such 
activity may be inappropriate.
    For example, a concessionaire running a photo-safari business 
specializing in bird photography could make a compelling case to a 
refuge manager that building a photo-blind proximate to a colonial 
nesting bird rookery would be a powerful enticement for attracting new 
clients--and generate additional dollars for the refuge--when such a 
project may, in fact, be marginally disruptive to the nesting birds.
    While careful monitoring of Comprehensive Conservation Plans (CCPs) 
by more objective parties may serve as a balance, and we are strongly 
supportive of Sec. 7 which requires an annual accounting of concession 
activities on refuges, the likelihood of consistent oversight is 
unlikely. To minimize this potential problem, the NWRA recommends that 
language be modified in H.R. 1204 to more specifically limit funds to 
facilities improvement and services that are directly related to the 
concession.
    An additional way to better ensure that concession activities 
remain consistent with the conservation objectives of refuges is to 
offer right of first refusal to refuge Friends groups on the units 
where they exist. The benefits of such an approach would have a two-
fold effect: Refuge Friends groups, by their very nature, have the best 
interests of the refuge in mind and; the refuge will benefit not only 
from fees returned to offset concession maintenance, but also from 
profits generated by the enterprise that will ultimately be returned to 
support the refuge in a number of different ways; in essence, doubling 
the money.
    Finally, we hope that it is not the intent of the Committee that 
concessions fees serve as a substitute funding source to address 
critical O&M backlog needs beyond those of operating and maintaining 
concession facilities. In our view, concessions fees should not release 
the Federal Government from its responsibility to provide necessary 
refuge O&M funding.
Exempting Friends-Operated Bookstores from Concessions Guidelines
    To the great benefit of the Refuge System, there has been an 
explosion of refuge ``Friends'' groups over the past ten years, now 
numbering more than 240 nationwide. These independent local citizens 
groups have become instrumental in providing a range of services to 
refuges, from providing interpretive tours and building boardwalks, to 
running hunt programs and raising private dollars for visitor centers.
    For many of these groups, operating refuge bookstore retail outlets 
generates important funding with which to support the refuge. Because 
of this, the NWRA believes that H.R. 1204 should explicitly exempt 
refuge bookstores operated by refuge Friends and cooperating 
associations from regulations governing concessions. Accordingly, we 
would propose adding language in Sec. 5(b)(2) that exempts bookstore 
operations agreements with Friends groups from the auspices of the 
Federal Grant and Cooperative Agreements Act of 1977 (31 U.S.C. 6301 
et. seq.) and Title 43 CFR (Part 12).
H.R. 2408--Reauthorizing Volunteer Programs and Community Partnerships
    Concurrent with the growth of refuge Friends groups has been the 
dramatic expansion of volunteer activity occurring on refuges. In 1982, 
4,251 volunteers provided support for refuges. In 2002, the U.S. Fish 
and Wildlife Service (FWS) reports that 34,000 volunteers contributed 
more than 1.2 million hours of service, valued at $28.8 million--
roughly 20% of the Refuge System's annual operating budget.
    Working as part of groups or independently, volunteers assist 
refuges with a range of conservation and public outreach programs. 
Depending on a refuge's needs and a volunteer's skills and interests, 
tasks performed can be as varied as bird banding surveys, working at a 
visitor contact station or assisting refuge staff with administrative 
support. In short, volunteers play an indispensable role in helping the 
National Wildlife Refuge System meet critical conservation objectives.
    To recognize the important contributions made by volunteers to 
refuges each year, the NWRA, in partnership with the National Fish and 
Wildlife Foundation (NFWF) provides awards to exceptional volunteers 
and Friends groups. This year's Volunteer of the Year award went to Jim 
Montgomery, a resident of Roswell, NM, who has volunteered more than 
10,000 hours at Bitter Lake NWR. The NWRA and NFWF also recognized the 
Friends of Blackwater NWR this year as Friends Group of the Year for 
their remarkable scope of programs benefiting both the refuge and the 
public.
    Recognizing the beneficial role volunteers play in connection with 
refuges, Congress in 1998 passed the National Wildlife Refuge System 
Volunteer and Community Partnership Enhancement Act (Act), legislation 
designed to provide the FWS with additional tools and incentives to 
expand an already impressive Refuge System volunteer workforce. We 
thank Representative Saxton and the Committee for introducing H.R. 
2408, which would reauthorize this valuable legislation and will look 
forward to working with the Committee to ensure that necessary 
improvements are made.
Volunteer and Community Partnership Act Accomplishments
    Overall, the Act has yielded strong results, a top priority being 
the establishment of volunteer coordinators on up to 20 geographically 
diverse refuges. Since enactment, 16 refuges or complexes have been 
selected for participation in the pilot program. Selected sites are 
diverse, varying in size, location, habitat, number of professional 
staff, access to population centers, presence of a Friends group and 
the existence of volunteer programs prior to the pilot program.
    The projects launched as a result of the Act vary as greatly as 
their respective refuges. The most common type of service provided by 
volunteers is public education and recreation, accounting for 60% of 
total volunteer hours. The next most common volunteer service involves 
assisting refuge staff with biological studies and wildlife monitoring, 
accounting for 21% of volunteer hours. The remaining volunteer time is 
spread over a variety of activities. Habitat management and restoration 
accounts for 13% of volunteer hours, while maintenance is a continual 
need involving facilities repair, clearing trails, trimming trees and a 
variety of other projects.
    Following are three examples of selected pilot projects and their 
associated accomplishments:
Desert NWR Complex, NV
    In 2001, the Desert NWR Complex, located outside of Las Vegas, 
Nevada, hired a full-time volunteer coordinator under the pilot. The 
coordinator was charged with reaching out to community members in the 
rapidly advancing Las Vegas metropolitan area. As a direct result of 
the coordinator's efforts, in Fiscal Year 2001 volunteers committed 
10,000 hours to the refuge, valued at more than $135,000--equal to more 
than five full time GS-5 employees.
    Further, the refuge has also been successful in developing 
partnerships with many different organizations including the National 
Fish and Wildlife Foundation, Outside Las Vegas Foundation, National 
Parks Foundation, Ducks Unlimited, Wildlife Habitat Improvement in 
Nevada and the Red Rock Audubon Society.
Anahuac NWR, TX
    Anahuac NWR is a complex of three refuges protecting more than 
10,000 acres of coastal habitat running from Vermillion Bay in 
Louisiana to Galveston Bay in Texas. The refuges receive more than 
100,000 visitors annually who enjoy the excellent birding, hunting, 
fishing and crabbing opportunities.
    Anahuac's volunteer coordinator was hired in September 2000 and has 
helped to generate more than 10,000 volunteer hours annually. Credit 
also goes to the Friends of Anahuac Refuge which has brought energetic 
leadership and promoted volunteerism at the refuge. Their combined 
efforts have resulted in a 15--20% boost in volunteerism since the 
position was created, and the refuge estimates that volunteers 
contribute almost as many hours as the refuge staff. Volunteers staff 
the information center, have helped build more than 730 feet of 
boardwalk and have conducted an environmental education program 
attracting 1200 to 1600 students annually. The volunteer program is so 
successful that Anahuac's Friends group was nominated for the 
organization of the year in Chambers County.
Neal Smith NWR, IA
    The Neal Smith NWR, located 20 miles east of Des Moines, Iowa, is a 
rich native prairie restoration project covering more than 8,500 acres. 
Since hiring a volunteer coordinator, volunteer activities in the 
refuge have doubled. In Fiscal Year 2002 volunteers spent some 20,000 
hours on the refuge working on a wide variety of projects such as 
managing the visitor center, greeting the public, operating the 
bookstore and conducting wildlife surveys. Volunteer prairie 
restoration efforts have included thousands of hours devoted to 
stopping the spread of invasive plant species and promoting the re-
growth of native grasses.
    Because of the refuge's proximity to Des Moines, more than 15,000 
students visit the refuge every year and are guided and educated by 
volunteers from the local community. Volunteers have become so active 
that their work is equal to that of eight FWS employees.
    Without question, the addition of volunteer coordinators on refuges 
constitutes exceptional value added. By adding one additional staff 
dedicated to volunteers and partners, refuges in many cases will be 
able to effectively grow their overall staffing capacity. Accordingly, 
the NWRA strongly supports this provision of the Act and believes that 
the program should be broadly expanded to other refuges as part of the 
reauthorization.
Improving FWS Cooperation with Partners on Large Projects
    In several instances since passage of the Act, partner groups 
engaged in developing large projects such as visitor centers on refuges 
have encountered unanticipated hurdles as a result of restrictions on 
the FWS's ability to transfer project funds to its partners. In two 
cases, legislative fixes in the appropriations process were sought to 
resolve the difficulties.
    Two years ago, the ``Ding'' Darling Wildlife Society, the Friends 
group for J.N. ``Ding'' Darling National Wildlife Refuge in Florida, 
built a $1.3 million dollar Center for Education from 100% private 
funds and donated the high quality facility to the refuge. $750,000 in 
Federal funds were appropriated for Center exhibits but, by law, could 
not be transferred to the group. This was resolved in the Fiscal Year 
2001 Interior Appropriations bill by Congress directing the Service to 
transfer the funds to the Society.
    Similarly, the John Heinz National Wildlife Refuge at Tinicum 
completed construction of the Cusano Environmental Education Center in 
December 2000. The majority of funds for this project came from a $2.47 
million bequest that was transferred to the NFWF. The Service had 
$180,000 in appropriated construction funds and $168,000 in operations 
funding, as well as $82,000 from private contributions, that could not 
be transferred to the Foundation as matching funds. Like the Darling 
problem, this was also resolved though appropriations language in the 
Fiscal Year 2001 Interior Appropriations bill. It is impractical and 
inefficient to conduct business in this manner.
    To successfully address this recurring difficulty and other 
unresolved public/private partnership challenges, the NWRA suggests the 
following amendment to the National Wildlife Refuge System Volunteer 
and Community Partnership Enhancement Act of 1998:
    <bullet> strike ``The Secretary of the Interior may enter into a 
cooperative agreement (within the meaning of chapter 63 of title 31, 
United States Code'' at the beginning of subsection (2)(A); and;
    <bullet> insert ``Notwithstanding the provisions of the Federal 
Grant and Cooperative Agreements Act of 1977 (31 U.S.C. 6301 et. seq.) 
and Title 43 CFR (Part 12), the Secretary of the Interior is hereafter 
authorized to negotiate and enter into cooperative agreements with any 
partner organization, academic institution, or State or local 
government agency to carry out one or more projects or programs for a 
refuge or complex of geographically related refuges in accordance with 
this subsection.''
Friends Group Audits
    To ensure that the maximum amount of funding generated through 
Friends group activities is returned to sustain their important 
conservation work for refuges, the NWRA requests that the Committee 
support a provision in the reauthorized Act that reduces the frequency 
of required audits for these groups; from once per year to once every 
three years. Currently groups with more than $250,000 in annual gross 
revenues must contract with an accountant to conduct a thorough, 
financial audit. At an average cost of $6,000, audits cost the not-for-
profit Friends groups a considerable amount of money that could 
otherwise go to support important refuge programs.
    The Association agrees that group finances should be well 
documented, however, and thus recommend that audits be conducted every 
three years. This will make certain that Friends groups are taking 
their accounting practices seriously, while also ensuring that refuges 
receive the support they need for their programs. We would be pleased 
to work with the Committee to develop appropriate amendment language.
Conclusion
    While the NWRA supports the intent of H.R. 1204, we believe changes 
can be made to ensure that this legislation addresses maintenance needs 
relating to concession activities--while also preserving the mission 
and purposes of refuges. Further, an exemption in this legislation for 
agreements with Friends groups to operate bookstores on refuges will 
allow Friends to use that revenue generating activity to continue to 
make significant contributions to refuges.
    NWRA strongly supports H.R. 2408 which would reauthorize the 
National Wildlife Refuge System Volunteer and Community Partnership 
Enhancement, and we look forward to working with the Committee to 
strengthen the legislation as it moves forward. Thank you, Mr. 
Chairman, this concludes my testimony.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Hirsche.
    I guess I would say at the outset that, to some extent, we 
as Members of Congress--and most members have refuges in their 
District--have taken for granted the number of volunteers on 
these refuges and the extraordinary things that they do. We 
don't underestimate the value. I guess we don't say it in 
public enough at the refuges, so to some extent over the next 
few years I would like to make that correction, especially in 
my District, Mr. Hook, for the kinds of things that you do, and 
also the other refuges throughout the State of Maryland. But 
they are magnificent places, and they really couldn't function 
if we didn't have volunteers.
    Mr. Hirsche, could you just make a comment on friends of 
refuges and how they operate bookstores? I was unaware that--
are all bookstores on all refuges run by the friends of that 
refuge?
    Mr. Hirsche. I don't know that all are. It is my impression 
that the vast majority are operated by refuge friends or 
cooperating associations.
    Mr. Gilchrest. So it would be your opinion that bookstores 
that are now operated by the friends of that particular refuge, 
which seems to be the norm for refuges, there is some language 
that might be useful in this legislation to ensure that that 
remains, the refuge keeps that practice, as opposed to bidding 
that out to some concessionaire?
    Mr. Hirsche. Yeah. Yes, sir. I think that what we are 
talking about is exempting friends from having to undergo the 
bidding process, reporting process. And frankly I think there 
is real disincentive for friends to bid on a bookstores as a 
concession if in fact those funds are going, rather than back 
to the friends group for their projects and efforts to support 
the refuge, instead that those funds go to something else, 
either to the refuge, under this act, for other activities, or 
to the Federal coffers. So it is effectively removing--it is a 
disincentive for friends groups to bid for a contract.
    Mr. Gilchrest. I see. Thank you. And I apologize for the 
continued mispronunciation of your name.
    Mr. Hirsche. Oh, that is quite all right.
    Mr. Gilchrest. I won't make that same mistake again.
    Mr. Campbell, do you have any comment on bookstores and 
volunteers and concessionaires?
    Mr. Campbell. We have a bookstore operating in our visitors 
center katty-corner across the boat basin from us. The question 
of whether there was an inherently competitive relationship, 
being right there on top of each other, was one that was raised 
early on, when we arrived at Okefenokee. We have made a 
decision not to put books in our own operation, and our friends 
group, the Okefenokee Wildlife League, has in fact made us 
lifetime members of that organization. We are very supportive 
of our friends group and are part of it.
    I would tend to concur with Mr. Hirsche's request that 
friends groups not have to go through a concession process in 
order to operate bookstores. Now, whether there are some 
sideboards that need to go into place there preventing the 
friends group from expanding its operations into those areas 
that are part of the business of the concession is another 
point. Our friends group has brought in some additional 
inventory items that go beyond books. It hasn't been an issue 
for us. I mean, we do just fine with what we have. But I 
don't--it is workable, but I think everyone, particularly if 
you have a concessionaire and a friends group, you need to make 
sure you have a real good relationship there.
    Mr. Gilchrest. I see. Thank you very much.
    I will ask Mr. Hook and Dr. Bristow this question 
specifically, but Mr. Campbell or Mr. Hirsche, if you want to 
answer it as well, I would appreciate it.
    I guess the question is what is the volunteer's role--and 
to some extent you have answered this in a general way in your 
testimony--a volunteer and a volunteer organization at a refuge 
have a diverse range of activities, as you have described. 
Could you tell me, maybe specific to the refuge that you 
represent, what do you think the role of the volunteer 
organization, or the goals of your volunteers are in 
relationship to the maintenance of the refuge, the ecology of 
the refuge, the educational activity in reference to that 
ecology to the surrounding community, in that the surrounding 
community enhance their understanding as to how that system, 
the ecosystem works? And then what do you see as the role of 
the volunteers to maintaining the ecological integrity of that 
refuge when they see things occurring that are not compatible 
with the ecology? And that could be anything from a 
concessionaire that might not be operating appropriately to the 
mismanagement of an oil and gas operation on the refuge.
    Dr. Bristow. I think that the place of volunteers on the 
refuge, first of all, has to be determined by discussion with 
the staff as to what they feel their needs are and where the 
volunteers can be of the most service to the refuge in 
performing their mission. Fortunately, we have had an excellent 
working relationship with the staff at Forsythe over the years, 
more than 20 now. We have picked up things--the refuge lost its 
biologist a few years back; Audubon group took over a weekly 
survey of birds. And even though we now have a biologist again, 
the biologist is very happy to have us doing it and he can 
focus his attention on other things that are needed more than 
doing the bird counts.
    We provide some services, particularly on weekends, when 
there is no staff present normally, through our store. We 
provide information. We provide change for people who need to 
pay the $4 fee. We provide annual passes, which they could not 
otherwise get; they would have to get there during the week. 
For many people, that is a real problem. So they are very happy 
to have us there to provide that service. Obviously, we have 
things for sale there. We have also been able to provide 
funding for many things that are not in the refuge's budget. We 
have a wildflower gardening group that is putting in a native 
wildflower garden around the refuge headquarters. We provided 
the materials for them. This is something that the refuge 
certainly isn't going to be able to squeeze out of its budget.
    A number of repairs have been done. We are working on 
providing real educational experiences for the classrooms that 
come through. If it wasn't for the friends group and the 
Audubon group working really hand-in-glove, most of these 
groups would simply be taking a day off from class and riding 
around and looking at the birds maybe, or busy talking among 
themselves. Frankly, I have been impressed even with teenagers, 
who like to be real cool and don't necessarily want to look 
like they were approving something like this, to see them very 
individually step up to the telescope and look at a snowy owl 
sitting out in the marsh, as big as their eyes can get, and 
hear very, very quietly things like, ``Wow,'' ``Oooh.'' And 
then they step back and they become that cool teenager again 
with their friends. No price can be put on something like that, 
obviously.
    Mr. Gilchrest. I think you provide them with life-changing 
experiences.
    Dr. Bristow. We certainly hope so.
    The other thing that we have done, and particularly with 
the help of our volunteer coordinator, is reaching out to the 
rest of the community. And again, through our little store 
facility, on weekends we can tell people, hey, there is a nice 
little restaurant where you can get a good sandwich and 
something to drink, or there is a place you can go get dinner. 
So we are helping the local business people as well. People 
occasionally ask us if there is someplace they can launch their 
canoe, so we refer them to the launching areas and the marinas 
that have such facilities. We have a kayaking operation that 
one of the local business people runs, so we have been putting 
them on. And all that kind of thing that I think not only helps 
the refuge, but it also helps the local business. About $10 
million comes into the area, as of last survey, just for 
tourism related to the refuge. So it is a big thing.
    Mr. Gilchrest. Thank you very much, Dr. Bristow.
    We are checking to see if that is a vote. I know not 
everybody has answered the questions I asked, but if you could 
hold that thought, I am going to yield to the gentlelady from 
Guam because I am going a little over my time.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
couple of questions. First, I think, for Mr. Jones, could you 
describe how the revenues generated thus far by the service 
from annual franchise fees and a percentage of gross receipts 
from concessionaires to date have been used by the service? The 
fees that you receive from the concessionaires, how are they 
used by Wildlife?
    Mr. Gilchrest. Was that question directed to Mr. Jones?
    Ms. Bordallo. Mr. Jones, yes.
    Mr. Gilchrest. Well, Mr. Jones, unfortunately, has had to 
leave as a result of the last vote.
    Ms. Bordallo. Oh, I see. So anyone else could answer. I 
guess no one, then.
    Mr. Gilchrest. I am not sure if anybody on the panel right 
now could answer that question. There is a lady in the back of 
the room that you could probably talk to later. Raised her 
hand.
    Ms. Bordallo. How are the fees used that you collect now?
    Mr. Gilchrest. Could you come up and speak into the mike, 
and then identify yourself?
    Ms. Rowell. I am Allyson Rowell. I am chief of visitors 
services for National Wildlife Refuge System. The way those 
concessions funds are used now is we have $187,000 in funds 
that came from those concessionaires last year. And those funds 
go into the refuge revenue-sharing fund. They do not go back to 
the refuge. And that is why this bill is so important, so it 
can go back to the refuge and maintain these buildings.
    Ms. Bordallo. I see, all right. And then the second one, 
perhaps--I think they were all directed to Mr. Jones. I am 
sorry I didn't--
    Has the service generated any numbers as to what this 
legislation may bring about if enacted, and if we are to treat 
capitalization costs incurred by concessionaires, how is the 
compensation for using the facility--what does this mean to the 
revenues the service currently collects?
    Ms. Rowell. Well, right now, as Mr. Jones said earlier, we 
don't really have a concessions program. We hope that this bill 
will help us get there. We do all sorts of different things--
special use permits, memorandums of understanding, concessions. 
And we are trying to actually define a concessionaire. Once we 
do that, we will be able to decide how much more revenue will 
be available for maintenance. We have a feeling that there is a 
great potential there to find maintenance money. And as Mr. 
Jones said, we have over a billion-dollar backlog in 
maintenance. And the concessionaires like Mr. Campbell surely 
would like to have their facilities maintained.
    Ms. Bordallo. Yes. Well, I think it is good legislation. 
And Mr. Chairman, we do have a Fish and Wildlife facility on 
Guam; however, we don't have any concessionaires. But I will 
tell you, the facility is falling apart.
    Ms. Rowell. I will tell Mr. Jones.
    Ms. Bordallo. I can see that, you know, this is needed.
    Now, my other question is, if we are to treat 
capitalization costs as compensation for using the facilities, 
could you offer us some detail as to how this will be 
reconciled? Will the concessionaire have to pay--will he be 
given, you know, recognition for everything that he puts into 
the maintenance and the repair?
    Ms. Rowell. I believe that the way the bill states right 
now that they are in-kind services. So if they do--you know, 
you calculate the value of that, and I think that is a very 
important factor of all of this.
    Ms. Bordallo. Thank you very much.
    Ms. Rowell. There is compensation.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Ms. Bordallo, very much.
    Mr. Hook, if you wanted to respond to that question that I 
had earlier?
    Mr. Hook. Sure. I would also like to mention, Friends of 
Blackwater has members in Guam.
    Mr. Gilchrest. Oh.
    Mr. Hook. Friends of Blackwater and the refuge is a 
tremendous partnership. We consider the refuge our 51 percent 
partner. We work with Glenn and his staff in the refuge to do 
what needs to be done down there. Our volunteers not only man 
the bookstores, serve as docents in the bookstores, there is 
just a tremendous biological research, wetlands, and forest 
restoration program, as Congressman Gilchrest knows, slogging 
in the marsh out there on Barren Island for 8 hours.
    By the way, that project--I was out there about a month 
ago--the grasses are up to here.
    Mr. Gilchrest. It is holding?
    Mr. Hook. Unbelievable what is happening.
    Mr. Gilchrest. Wonderful.
    Mr. Hook. But the Friends of Blackwater not only contribute 
money to the refuge, all the money we make goes back to the 
refuge. We don't spend any money on ourselves. But a lot of our 
projects are educational in nature. For example, we are opening 
up 20 miles of paddling trails on Saturday. We are in the 
process now of building a little over four miles of brand-new 
hiking trails. And part of that will be an educational pavilion 
back in the woods. They are looking at something about 25 feet 
by 45 feet, screened-in educational pavilion that we can use to 
help people understand and provide the interpretive information 
on the refuge.
    The trails have some very unique educational interpretive 
potential. The one trail is right in the path of where the 
tornado hit a year and a half ago, and it is really something 
to see what the tornado did in the way the forest comes back, 
Mother Nature comes back. There are several areas on the trail 
that are mature forest, select-cut forest, and replanted 
forest.
    The question you asked about if we see something wrong on 
the refuge--and I assume that is something somebody is doing 
wrong on the refuge--of course, we are the biggest whistle-
blowers going if anybody does anything wrong. But we also help 
organization and help put together the programs to maintain the 
refuge in many areas where it is just things that volunteers 
can do that would take staff time that would be better spent, 
the staff time, doing something else with their expertise and 
then having volunteers do the--I hate to say it, but the grunt 
work and the hands-on and some of the dirty work to free the 
refuge staff to do other things. We do a lot of that.
    The biggest thing, I think, is the cooperation we have from 
the refuge in this relationship, where the refuge is our 51 
percent partner. And everything goes back to them. In my 
written testimony, I had a whole list of things we have 
accomplished. By the way, I hope that gets in.
    Mr. Gilchrest. Your full statement will be submitted to the 
record.
    Mr. Hook. OK, thank you. I hope that helped answer the 
question.
    Mr. Gilchrest. Yes, it did very much. Thank you.
    Mr. Hook. Thank you.
    Mr. Gilchrest. One last--oh, Ms. Bordallo, do you have a 
question?
    Ms. Bordallo. Go ahead.
    Mr. Gilchrest. I was just going to ask--unless you wanted 
to comment, Mr. Hirsche, on that.
    Mr. Hirsche. If I could.
    Mr. Gilchrest. Yes.
    Mr. Hirsche. Thank you, Mr. Chairman. I wanted to raise a--
or clarify something, a distinction of friends and volunteers. 
If I am not mistaken, certainly Friends of Blackwater--I don't 
know about Dr. Bristow's group--they run the volunteer 
programs. But in many cases, the volunteer program is separate 
from the friends group and the volunteer program is actually 
operated by the refuge. And depending where you go in the 
country and which refuge and which group, that relationship can 
be different. So I think it is important to help clarify that.
    But I think you would--and I think Mr. Hook raises this 
point--the relationship between a friends group and the refuge 
is what makes a partnership successful. It is a partnership, 
and it is not a subservient relationship. And the most 
successful groups out there working jointly with the refuges 
are doing so because they have tremendously strong 
relationships with the refuge managers and understand their 
respective roles.
    You had asked about biological integrity and monitoring to 
some extent what is occurring on refuges and ensuring that 
those things occurring on refuges are in fact compatible. I 
think more often than not you will find that friends groups can 
serve as a valuable voice and outreach tools to communities, 
particularly when we are talking about activities that may be 
popular in the community but potentially a challenge as far as 
ensuring compatibility. And so a friends group can play an 
incredibly important role in educating the community, involving 
them. And so I think friends, yes, they are involved in a whole 
range of activities, but one of the most important activities 
from our perspective is reaching out to local communities and 
educating and involving them.
    Mr. Gilchrest. Just a quick comment. It seems that every 
decade or so, individuals continue to expand their 
responsibilities. There always seems more and more to do. This 
is a preface to this question I am about to ask. And the more 
humans there are, the more activities there are, the more 
things need to be done to react to that activity. And one of 
the things humans have done pervasively over the last century, 
I guess, is to spread invasive species. So I know you are 
looking out for education, you are selling books, you are 
paddling down, you are getting connected with the community, 
you are doing all those things--is there any thought about 
volunteers that observe or then actually react to invasive 
species that they see in their refuge?
    Mr. Hirsche. Mr. Chairman, if I could respond. There in 
fact is a considerable amount of effort by volunteers on the 
ground to--
    Mr. Gilchrest. And concessionaires as well.
    Mr. Hirsche. And concessionaires, to monitor the advance of 
invasives and address invasives. More specifically, in the 2003 
Interior appropriations bill, there is a million dollars and 
language allocated to Fish and Wildlife Service to implement 
volunteer programs around invasives. And they are in fact in 
the process of implementing pilot projects around the country 
to get volunteers out there monitoring and, where appropriate, 
taking action.
    In my testimony, I cite Neal Smith National Wildlife Refuge 
in Iowa in particular, which is a native prairie restoration 
project, and they report that they have volunteers putting in 
thousands of hours, both stopping the advancement of invasives, 
but planting native grasses.
    Mr. Gilchrest. I think the Friends of Blackwater are 
considering a concession where they will sell nutria burgers.
    Mr. Hook. We have some terrific recipes, yes, sir.
    Mr. Gilchrest. Thank you very much. I yield to the 
gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I just 
have one question. And I think perhaps the representative from 
the Fish and Wildlife Service may have to be the one to answer 
this. And I was very happy to hear that we do have the Friends 
of Blackwater on Guam. Isn't that what you state?
    Mr. Hook. Yes, there are members of Friends of Blackwater 
from Guam.
    Ms. Bordallo. Very good.
    I am curious. If we do not have a concessionaire in our 
facility on Guam, and it is near the ocean coastline-- and that 
is why I say it needs maintenance, it needs repair--would there 
be funds in the department, then, to take care of something 
like that? I mean, this bill has to do with the concessionaires 
taking care of repairs and maintenance, but we do not have a 
concessionaire in Guam. So how is that going to be handled?
    Ms. Rowell. If you really want a concessionaire, I think 
that we can explore the possibility of what the economic value 
is. And we have a concessionaire national program person here. 
We can look into that. And another option, a lot of these 
friends groups, many of the people at Ding Darling and the 
friends group, they have gone off and started friends groups at 
Midway and all over the world where there aren't people.
    Ms. Bordallo. We would love to have you on Guam. So, 
please--
    Ms. Rowell. Well, let's look into it.
    Ms. Bordallo. Very good. All right. And so, for that 
reason, if we are not successful, then there wouldn't be any 
funds, then, to maintain the facility, is that what I am 
hearing?
    Ms. Rowell. That is probably what you are hearing, because 
then it goes on the backlog.
    Ms. Bordallo. All right, then, we will extend an invitation 
to concessionaires to Guam.
    Ms. Rowell. I will go.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you. And Mr. Hook, Mr. Bristow, Mr. 
Campbell, Mr. Hirsche, thank you all very much for your fine 
testimony. We will take it to heart and become relentless to 
ensure that both these pieces of legislation, with your help, 
will be guided through the process and signed into law.
    Thank you all very much, and thank you for coming. Have a 
great, cool day.
    The hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]


</pre></body></html>
